   Office of Inspector General
   Audit Report


OFFICE OF RESEARCH
 AND DEVELOPMENT

      Audit of Extramural
   and Property Management
at the Atlantic Ecology Division
           2000-P-00015
          March 29, 2000
Inspector General Division(s)   Eastern Audit Division
 Conducting the Audit           Boston, Massachusetts


Program Office(s) Involved      Office of Research and Development,
                                National Health & Environmental
                                Effects Research Lab,
                                Atlantic Ecology Division

Photograph:                     Shannon Nichols, EAD
MEMORANDUM
SUBJECT:     Audit of Extramural and Property Management at the
             Atlantic Ecology Division
             Audit Report No. 2000-P-00015
FROM:        Paul D. McKechnie
             Divisional Inspector General
             Eastern Audit Division
TO:          Norine E. Noonan, Ph.D.
             Assistant Administrator,
             Office of Research and Development


       Attached is our audit report, Audit of Extramural and Property Management at
the Atlantic Ecology Division. This report contains findings and recommendations that
are important to the Atlantic Ecology Division within the Office of Research and
Development.

       This audit report represents the opinions of the Office of the Inspector General
(OIG). Final determinations on recommendations in this audit report will be made by
EPA managers in accordance with established EPA audit resolution procedures.
Accordingly, the findings contained in this audit report do not necessarily represent the
final EPA position.

ACTION REQUIRED

       In accordance with EPA Order 2750, you as the action official are required to
provide this office a written response to the audit report within 90 days. Your response
should address all recommendations, and include milestone dates for corrective
actions planned, but not completed.
      We have no objection to the release of this report to the public.

      Should you or your staff have any questions about this report, please contact me
or have your staff contact Linda Fuller, Team Leader at (617) 918-1470.

Attachment
                                                        Audit of Extramural and
                                                    Property Management at the
                                                       Atlantic Ecology Division




               EXECUTIVE SUMMARY

INTRODUCTION        On June 16, 1993, the OIG issued its audit report,
                    Management of Extramural Resources at the
                    Environmental Research Laboratory, Narragansett,
                    Rhode Island. The Environmental Research
                    Laboratory is now the Atlantic Ecology Division
                    (AED). The OIG’s 1993 audit was part of a
                    nationwide review of contract management practices
                    at ORD laboratories. Significant findings were
                    reported which included the: 1) appearance of
                    incumbent favoritism in the procurement of contracts;
                    2) misuse of EPA research contracts, cooperative
                    agreements, and interagency agreements; 3)
                    inadequate contract management controls; and 4)
                    other various administrative deficiencies. Due to the
                    significance of the findings, the OIG conducted a
                    review to determine if improvements were made in
                    AED’s management of contracts, cooperative
                    agreements, and interagency agreements. Desiring
                    to improve operations, AED personnel requested that
                    we also review property management.



OBJECTIVES          The objectives of our review were to determine if
                    AED:

                          1.       provided adequate oversight of
                                   Contractors to assure that work was
                                   completed in accordance with contract
                                   provisions, the statement of work, and
                                   other applicable regulations;




                               i                       Report No. 2000-P-00015
                                                        Audit of Extramural and
                                                    Property Management at the
                                                       Atlantic Ecology Division



                         2.        properly used contracts, interagency
                                   agreements, and cooperative
                                   agreements as intended to help
                                   accomplish the Agency’s research
                                   mission; and

                         3.        adequately accounted for and
                                   safeguarded its property.



RESULTS IN BRIEF   Since our 1993 audit, AED made limited progress in
                   implementing the recommendations in our prior report
                   to improve the management of contracts, cooperative
                   agreements and interagency agreements. If AED had
                   better used their Extramural Management Specialist’s
                   (EMS’) Event Cycle Reports, which identified internal
                   control weaknesses, this report would not be
                   necessary. However, the Acting Director was
                   responsive to our recommendations and already
                   started implementing various corrective actions at the
                   time of our audit. AED recently hired personnel with
                   stronger backgrounds in program administration and
                   contract management who should help resolve some
                   of the continuing problems. The following summaries
                   provide further details of our findings.

                   Senior Management Needs to Improve
                   Administrative Controls

                   AED Senior Management did not adequately oversee
                   administrative practices in contract and property
                   management. Both the AED’s Acting Director and
                   Associate Director for Administrative Program
                   Operations (ADPO) need to assure that policies and
                   procedures are established and implemented so that
                   contract and property management effectively
                   supported the facility’s science and research mission.
                   The Acting Director’s focus had been on

                              ii                       Report No. 2000-P-00015
                                    Audit of Extramural and
                                Property Management at the
                                   Atlantic Ecology Division

science/research. The ADPO is principally


responsible for administrative functions, however,
AED was without a permanent ADPO from February
1996 until April 1998. Even though AED’s EMS
reported on contract and property management
weaknesses in 1996, these issues were not
addressed. As a result, contract and property
resources were not used effectively. The Operations
& Maintenance (O&M) Contractor did not provide all
the services required or expected under the contract.
Valuable property was left vulnerable to misuse or
theft.

Limited Improvement in Contract Management

While AED’s management of its ADP contract was
adequate, management of its O&M contract
continued to be seriously deficient. As a result, the
O&M Contractor, not AED, controlled the work. The
Contractor did not provide all services according to
the contract. Until recently, the O&M Project Officers
lacked either the skills or experience to effectively
manage the contract.

Improvements Needed in Property Management

Improvements need to be made in AED’s property
management. We found that 1) custodial officer
designations were out-dated; 2) annual inventories
were not performed; and 3) the status of loaned
equipment was unknown. The Property Officer and
the EMS brought these weaknesses to the attention
of Senior Management who did not take corrective
action. Improving property management was not a
priority. As a result, $6,212,611 of accountable
property was not safeguarded.




         iii                       Report No. 2000-P-00015
                                                       Audit of Extramural and
                                                   Property Management at the
                                                      Atlantic Ecology Division



                  Improvements Made in Oversight of Cooperative
                   Agreements but Not Interagency Agreements

                  AED made improvements in its oversight of
                  cooperative agreements but not interagency
                  agreements (IAGs). Funding for cooperative
                  agreements reviewed was for appropriate AED
                  activities (pre-doctoral and post-doctoral research).
                  The Project Officer and Local Site Representative
                  diligently monitored grant activities and maintained
                  adequate documentation to assure that the terms of
                  the agreements were met. As a result, these
                  cooperative agreements helped fulfill AED’s research
                  mission to support science. Specifically, these
                  agreements supported training and development of
                  young environmental scientists who conducted
                  environmental and ecological research.

                  The Project Officer for the IAG, however, did not
                  assure that status reports or support for costs were
                  received and reviewed. The IAG Project Officer
                  admitted that he was remiss in carrying out his
                  responsibilities. As a result, we could not confirm if
                  progress was made in AED’s oversight of IAGs.



RECOMMENDATIONS   We recommend that the AED Director:

                  1.     Instruct the ADPO to establish contract and
                         property management procedures which will
                         ensure that staff, contract, and property
                         resources are used effectively and that
                         property is safeguarded. Also, the ADPO
                         should ensure that the procedures are
                         followed and delivering results.

                  2.     Take appropriate action if staff does not
                         perform in accordance with established

                           iv                         Report No. 2000-P-00015
                                                        Audit of Extramural and
                                                    Property Management at the
                                                       Atlantic Ecology Division

                           procedures and performance agreements.

                     3.    Develop a formal system to resolve
                           weaknesses identified in Event Cycle Reports.
                           A corrective action plan should be developed
                           with specific staff identified to carry out
                           actions. Milestones should be set and
                           progress along with success should be
                           measured.

                     4.    Seek out expert assistance from Headquarters,
                           Research Triangle Park, etc.

                     At the end of each Chapter, specific
                     recommendations have been included to improve 1)
                     contract monitoring, 2) property management, and 3)
                     IAG monitoring.



AGENCY COMMENTS      A teleconference was held with the Office of
AND OIG EVALUATION   Research and Development (ORD) and the OIG staff
                     on March 1, 2000 to discuss the draft audit report’s
                     findings. On March 16, 2000, the Assistant
                     Administrator (AA) responded to our draft report. The
                     AA stated that, in general, ORD concurred with the
                     report’s findings and recommendations. We
                     incorporated some of ORD’s comments into our
                     findings and also included a section summarizing
                     ORD’s comments and our evaluations at the end of
                     each finding. ORD’s response is attached in its
                     entirety as Appendix 4.




                              v                        Report No. 2000-P-00015
                                           Audit of Extramural and
                                       Property Management at the
                                          Atlantic Ecology Division




[This page intentionally left blank]




                 vi                       Report No. 2000-P-00015
                                                                                                    Audit of Extramural and
                                                                                                Property Management at the
                                                                                                   Atlantic Ecology Division




                            TABLE OF CONTENTS
                                                                                                                         Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ix

CHAPTER 1 - INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

         Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1
         Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1
         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               3
         Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          5

CHAPTER 2 - SENIOR MANAGEMENT NEEDS TO IMPROVE
                ADMINISTRATIVE CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . 7

CHAPTER 3 - LIMITED IMPROVEMENT IN CONTRACT MANAGEMENT . . . . . . . 23

CHAPTER 4 - IMPROVEMENTS NEEDED IN
                PROPERTY MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

CHAPTER 5 - IMPROVEMENTS MADE IN OVERSIGHT OF
                COOPERATIVE AGREEMENTS BUT NOT
                INTERAGENCY AGREEMENTS . . . . . . . . . . . . . . . . . . . . . . . . 63

APPENDIX 1 - SCHEDULE OF SAFETY FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . 73

APPENDIX 2 - SCHEDULE OF CUSTODIAL ACCOUNTS . . . . . . . . . . . . . . . . . . . . 75

APPENDIX 3 - SCHEDULE OF 1999 INVENTORY . . . . . . . . . . . . . . . . . . . . . . . . . . 77

APPENDIX 4 - ORD’S RESPONSE TO OIG DRAFT REPORT . . . . . . . . . . . . . . . . . 79

APPENDIX 5 - DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 97

                                                              vii                                   Report No. 2000-P-00015
                                           Audit of Extramural and
                                       Property Management at the
                                          Atlantic Ecology Division




[This page intentionally left blank]




                viii                      Report No. 2000-P-00015
                                                         Audit of Extramural and
                                                     Property Management at the
                                                        Atlantic Ecology Division




            ABBREVIATIONS

AA       Assistant Administrator

ADPO     Associate Director for Project Operations

AED      Atlantic Ecology Division

CMD      Contract Management Division

CO       Contracting Officer (or Office)

EAD      Eastern Audit Division

EMS      Extramural Management Specialist

EPA      Environmental Protection Agency

FAIR     Facilities Administration and Information Resources

FMFIA    Federal Managers’ Financial Integrity Act

IAG      Interagency Agreement

IDP      Individual Development Plan

IFMS     Integrated Financial Management System

NHEERL   National Health & Environmental Effects Research Laboratory

NOAA     National Oceanic and Atmospheric Administration

NRC      National Research Council

OIG      Office of the Inspector General


                               ix                       Report No. 2000-P-00015
                                                     Audit of Extramural and
                                                 Property Management at the
                                                    Atlantic Ecology Division




O&M    Operations & Maintenance

ORD    Office of Research and Development

PO     Project Officer

PPAS   Personal Property Accountability System

RLA    Revocable License Agreement

RTP    Research Triangle Park

SOW    Statement of Work

URI    University of Rhode Island




                            x                       Report No. 2000-P-00015
                                                 Audit of Extramural and
                                             Property Management at the
                                                Atlantic Ecology Division




             CHAPTER 1
             INTRODUCTION


PURPOSE      The OIG conducts follow-up audits of prior significant
             reports to determine if auditees have successfully
             implemented recommendations. On June 16, 1993,
             the OIG issued its audit report, Management of
             Extramural Resources at the Environmental Research
             Laboratory [now the Atlantic Ecology Division (AED)],
             Narragansett, Rhode Island. Significant findings
             were reported in contractor selection, contract
             management, and various administrative practices.

             We conducted a limited follow up review of contract,
             cooperative agreement, and interagency agreement
             management practices at AED. We also reviewed
             property management upon the request of AED staff
             who desired to improve operations.



BACKGROUND   The Office of Research and Development (ORD)
             provides the scientific foundation to support EPA’s
             mission with research and development, technical
             support, integration of scientific information and
             anticipatory research. Since our last audit, ORD
             reorganized in 1995 which changed the Narragansett
             laboratory’s organization and mission. It became the
             Atlantic Ecology Division, one of nine divisions within
             ORD’s National Health & Environmental Effects
             Research Laboratory (NHEERL) which performs high
             quality effect-based research to improve the Agency’s
             ability to make decisions about health and ecological
             risk. AED’s new mission was to study the effects of

                      1                         Report No. 2000-P-00015
                                   Audit of Extramural and
                               Property Management at the
                                  Atlantic Ecology Division

contaminants and other stressors on the coastal
waters and watersheds of the Atlantic seaboard.

Under the supervision of the NHEERL Associate
Director for Ecology, AED’s Director is supported by
an Associate Director for Program Operations and an
Associate Director for Research. The Associate
Director for Research has been the Acting Director
for six years. AED is composed of three branches: 1)
Ecosystems Analysis and Simulation Branch, 2)
Ecological Response Branch, and 3) Indicator
Development Branch. An Extramural Management
Specialist (EMS) reports to the AED Director. The
EMS provides guidance on extramural management
and carries out other administrative duties. AED
employs 82 Federal employees at Narragansett,
Rhode Island as well as two employees at its
Annapolis, Maryland site.

As of Federal Fiscal Year 1999, the following
extramural resources were administered at the
Narragansett site. (These figures do not include
resources administered at the Annapolis site.)




         2                        Report No. 2000-P-00015
                                                  Audit of Extramural and
                                              Property Management at the
                                                 Atlantic Ecology Division




SCOPE AND     We performed this audit in accordance with
METHODOLOGY   Government Auditing Standards (1994 Revision)
              issued by the Comptroller General of the United
              States as they apply to performance audits. Our
              review included tests of the program records and
              other auditing procedures we considered necessary.

              We conducted audit work at EPA’s National Health
              and Environmental Effects Research Laboratory
              (NHEERL), AED located in Narragansett, Rhode
              Island.

              We reviewed AED files containing work orders and
              invoices for the Operations and Maintenance (O&M)
              and Facilities Administration and Information
              Resources (FAIR) contracts. We determined from
              work orders, invoices and interviews whether
              improvements were made in contract management
              since the 1993 OIG report. We interviewed key
              personnel at AED, including the Acting Director,
              ADPO, Project Officers, Alternate Project Officers,
              and EMS. At AED, we interviewed the Contracting
              Officer from EPA’s Research Triangle Park, North
              Carolina.

              For the O&M contract, we reviewed 100 percent of
              the Fiscal Year 1997 work orders to determine the
              designated priority of the tasks. We reviewed every
              10th work order to determine if the final work by the
              Contractor was accepted by AED. For Fiscal Year
              1999, we reviewed all the work orders though May
              10, 1999 to determine the amount of time it took to
              complete the task and if there was an acceptance
              signature from the Project Officer. Finally, we
              reviewed Fiscal Year 1999 invoices through June 6,
              1999 to determine if Contractor costs claimed were
              allowable.



                       3                         Report No. 2000-P-00015
                                   Audit of Extramural and
                               Property Management at the
                                  Atlantic Ecology Division

For the FAIR contract, we judgmentally sampled 25 of
95 (26 percent) work orders issued between January
and May 1999 to determine if work was completed
timely. Additionally, we reviewed a judgmental
sample of invoices from Fiscal Years 1998 and 1999
to determine if all costs claimed were properly
supported.

We reviewed Fiscal Years 1998 and 1999
(September through May) procurement requests to
determine if services and supplies included in the
O&M contract were purchased from other sources.
The Project Officer assisted us in our review.

We selected two of four cooperative agreements and
one of three interagency agreements for review.
Agreements with the highest dollar values were
selected. We interviewed Project Officers and the
Local Site Representative. We reviewed progress
reports, invoices and other pertinent information to
determine if extramural funds were used for their
intended purposes.

A training report from ORD Management Information
System was scanned for employees who had taken
many college courses. We reviewed the form SF-
182, Training Request Form, for Fiscal Years 1997
through 1999 for those employees with many college
courses to determine training objectives. We
interviewed the Acting Director, ADPO, and
Personnel Assistant regarding policies and
procedures for attending training classes at
universities.

We used the Integrated Financial Management
System (IFMS) to determine when property
information was entered into the system. Specifically,
we reviewed all the capital equipment. We also
reviewed large dollar purchase orders for Fiscal
Years 1998 and 1999 to determine when the


         4                        Report No. 2000-P-00015
                                                  Audit of Extramural and
                                              Property Management at the
                                                 Atlantic Ecology Division

              equipment was entered into IFMS. We compared the
              1997 Personal property Accountability System
              (PPAS) and 1999 IFMS inventory printouts.

              With the AED Property Officer, we conducted an
              unannounced inventory using July 8, 1999 IFMS
              inventory reports.

              We used the 1996 U.S. EPA Safety, Health, &
              Environmental Review and discussed those findings
              with AED’s Safety Officer.

              As part of our evaluation, we reviewed AED’s Fiscal
              Years 1996, 1997, and 1998 Federal Managers’
              Financial Integrity Act (FMFIA) Assurance Letters. In
              Fiscal Years 1996 and 1997, there were no material
              weaknesses related to our review. The Fiscal Year
              1998 letter identified the retirement of the Facilities
              Manager as a vulnerability to monitoring contractor
              performance. The Fiscal Year 1998 letter also
              reported that AED considered past OIG findings
              resolved. Based on our findings and the findings
              reported in 1996 by AED’s EMS, these FMFIA reports
              did not adequately identify AED’s internal control
              weaknesses. For further details, see Chapters 2
              through 5.

              Our fieldwork was performed from May 17, 1999 to
              August 20, 1999.



PRIOR AUDIT   On June 16, 1993, the Eastern Audit Division issued
COVERAGE      Management of Extramural Resources at the
              Environmental Research Laboratory, Narragansett,
              Rhode Island (Audit Report No. E1JBF2-01-0275-
              3100236). We reported findings of favoritism in
              contract procurement; inadequate contract, IAG, and
              cooperative agreement management; as well as other


                       5                         Report No. 2000-P-00015
                                   Audit of Extramural and
                               Property Management at the
                                  Atlantic Ecology Division



poor administrative practices. This audit was part of
a nationwide review of contract management at ORD
laboratories.

NHEERL conducted management reviews of AED,
issuing reports dated March 1995 and September 29,
1998. The reviews assessed AED’s use of its
resources and compliance with applicable laws,
regulations, and Agency policy. The reviews also
assessed management controls and procedures to
determine whether established controls and
procedures were functioning effectively. In general,
NHEERL reported that AED made improvements in
extramural management. However, NHEERL also
provided recommendations to AED to improve certain
aspects of its contract management. No findings or
recommendations were reported on property
management.




         6                        Report No. 2000-P-00015
                                            Audit of Extramural and
                                        Property Management at the
                                           Atlantic Ecology Division




        CHAPTER 2
  SENIOR MANAGEMENT NEEDS TO
IMPROVE ADMINISTRATIVE CONTROLS


         AED Senior Management did not adequately oversee
         administrative practices in contract and property
         management. Both the AED’s Acting Director and
         Associate Director for Administrative Program
         Operations (ADPO) did not assure that policies and
         procedures were established and implemented so
         that contract and property management effectively
         supported the facility’s science and research mission.
         The Acting Director’s focus had been on
         science/research. The ADPO is principally
         responsible for administrative functions, however,
         AED was without a permanent ADPO from February
         1996 until April 1998. Even though AED’s Extramural
         Management Specialist (EMS) reported on contract
         and property management weaknesses in 1996,
         these weaknesses were not corrected. As a result,
         contract and property resources were not used
         effectively. The O&M Contractor did not provide all
         the services required or expected under the contract.
         Valuable property was left vulnerable to misuse or
         theft.

         According to ORD [Office of Research and
         Development] Policies and Procedures Manual
         Chapter 4, Section I:

               It is ORD policy that all extramural instruments
               are managed in such a manner as to promote
               the highest level of scientific and engineering




                  7                        Report No. 2000-P-00015
                                    Audit of Extramural and
                                Property Management at the
                                   Atlantic Ecology Division

      excellence while adhering to all applicable
      Federal and Agency regulations, policies,
      procedures and guidance.

The Acting Director’s Position Description provides
as part of major duties and responsibilities:

      Assesses needs, defines goals, develops
      program plans, and establishes organizational
      structure of the Division; delegates authority
      and responsibility; establishes overall
      operating policies, priorities, and procedures;
      develops long- and short-range plans and
      projects; allocates dollar and manpower
      resources within broad budgetary limitations;
      establishes optimum intramural vs. extramural
      (contract and grant effort) balance; directs,
      coordinates and reviews all Division conducted
      or directed activities; and reviews and
      evaluates progress and performance of those
      activities and takes independent corrective
      actions, as necessary. Incumbent selects,
      assigns and provides leadership, direction and
      guidance to a multi-disciplined staff to achieve
      assigned program objectives.

The ADPO Position Description states that the
incumbent provides:

      ... service-oriented research and administrative
      support which facilitates high quality science in
      pursuit of the research mission of the Division.

Additionally, the ADPO is responsible for contract,
grant and interagency agreement management;
scientific equipment management; procurement,
supply and property management among several
other services.




         8                         Report No. 2000-P-00015
                                                                Audit of Extramural and
                                                            Property Management at the
                                                               Atlantic Ecology Division

                            The ADPO is a key position in assuring that AED has
                            good administrative management. This position was
                            not filled on a permanent basis from 1996 to 1998.
                            The ORD Assistant Administrator stated, “The
                            vacancy of this critical administrative supervisory
                            position exacerbated the timeliness and effectiveness
                            of AED’s ability to remedy problems in both
                            extramural and property management.” ORD
                            provided the following background information:

                                  AED was without a permanent ADPO from
                                  February 1996 until April 1998. This staffing
                                  limitation is critical to understanding the delays
                                  in dealing with all of the issues raised in this
                                  report. On February 18, 1996 the ADPO
                                  transferred to the AED detachment in
                                  Annapolis, MD. An Acting ADPO was put into
                                  place; however, he had limited management
                                  experience and was required to maintain the
                                  workload for his position of record along with
                                  serving as the Acting ADPO. AED began the
                                  recruitment process to fill the ADPO position
                                  on a permanent basis on April 28, 1997. The
                                  Merit Promotion closed on July 28, 1997 and
                                  the [Office of Personnel Management] OPM
                                  Vacancy closed on August 15, 1997. Because
                                  this position is critical to improving
                                  management and operations at AED, the
                                  interview process was extensive and time
                                  consuming. The position was not filled until
                                  April 19, 1998.



Progress Since OIG Report   In our June 16, 1993 audit report, Management of
                            Extramural Resources at the Environmental Research
                            Laboratory, Narragansett, Rhode Island, we reported
                            that contract management controls were inadequate;




                                     9                         Report No. 2000-P-00015
                                                          Audit of Extramural and
                                                      Property Management at the
                                                         Atlantic Ecology Division

                      research contracts, cooperative agreements, and
                      interagency agreements were misused and other
                      administrative practices were deficient. As a result of
                      our review, ORD management issued various
                      guidance and policy statements to its staff.

                      On November 16, 1993, the Acting Assistant
                      Administrator for Research and Development wrote to
                      all ORD employees:

                            It has been and is the responsibility of the
                            Federal employees who manage these funds
                            to assure that they are expended in
                            accordance with the relevant Federal laws and
                            regulations and Agency policies and
                            procedures. Consequently when EPA
                            scientists become involved with expending
                            extramural funds they must assume the related
                            management responsibility. And just as good
                            science requires well documented data, good
                            management of Federal funds also requires
                            documentation and adherence to establish
                            management procedures and controls.

                      Our follow-up evaluated progress made in the area of
                      contract, cooperative agreement, and interagency
                      agreement management. Property management was
                      added to our review upon request of AED staff who
                      desired to improve operations in this area.



Contract Management   Since our 1993 audit, AED continued to have
                      problems in managing its O&M contract. AED took
                      the corrective actions that were necessary to close
                      out the audit findings. Training and guidance
                      material on proper contracting procedures were
                      provided to Project Officers. Additionally, the EMS
                      position was


                               10                        Report No. 2000-P-00015
                                      Audit of Extramural and
                                  Property Management at the
                                     Atlantic Ecology Division

created to serve as an advisor to the Acting Director
on all extramural management issues, policies and
procedures as they related to the organization’s
operations. However, these actions did not resolve
the issue of poor contract management. AED
management did not ensure that corrective actions
taken were successful.

The Acting Director said he had been assured by his
managers that corrective actions were in place. Also,
he stated that science was the principal purpose of
the lab. It was his opinion that the lab had been well
serviced and maintained by the O&M Contractor with
the PO’s oversight. The lab had “not lost any major
research milestones due to any facility systems
failures.” He believed problems with contract
management continued because:

      1)        the Acting ADPO was not fully qualified;

      2)        the PO did not possess good contract
                management skills; and

      3)        the contract was poorly written.

For approximately two years (from 1996 until April
1998), the ADPO position was temporarily filled by an
AED employee with a scientific background.
According to the Acting Director, this ADPO lacked
the management skills necessary to deal with difficult
situations, such as a PO who lacked good contract
management skills. There was no one else at AED
with the proper background who could replace the
PO.

The O&M contract’s Statement of Work was written
by the ADPO (an individual hired on a permanent
basis prior to the acting ADPO) and the PO. EPA’s
Contract Specialist from RTP described the contract’s



           11                        Report No. 2000-P-00015
                                                                   Audit of Extramural and
                                                               Property Management at the
                                                                  Atlantic Ecology Division

                            Statement of Work as “vague” and “ambiguous”. The
                            Contracting Officer believed that this poorly written
                            contract prevented EPA from holding the Contractor
                            accountable for various activities (See Chapter 3).

                            The Acting Director believed EPA’s Contract
                            Management Division did not provide adequate
                            assistance.

                            AED Senior Management needs to seek out
                            assistance from the appropriate EPA office which can
                            provide the specialized administrative expertise that
                            AED lacks. If AED believes such offices are not
                            fulfilling their responsibilities, again, it is up to Senior
                            Management to work out issues with their
                            counterparts or, if appropriate, to elevate issues to
                            higher management.

                            AED Senior Management believed they now have an
                            O&M Project Officer with a strong contract
                            background.



Cooperative Agreement and   Progress was made in management of cooperative
Interagency Agreement       agreements but not interagency agreements. The
Management                  Project Officers responsible for cooperative
                            agreements monitored their projects, thus assuring
                            that the projects achieved their intended purpose.
                            Also, AED implemented audit recommendations to
                            abolish funding of ineligible activities such as training
                            for advanced degrees and day-care for non-federal
                            employee children. However, the IAG Project Officer
                            did not obtain and review project status reports or
                            support for project costs. He believed the progress
                            and costs were reasonable based upon his
                            knowledge of the project but we could not confirm
                            without documentation. (See Chapter 5)




                                      12                          Report No. 2000-P-00015
                                                              Audit of Extramural and
                                                          Property Management at the
                                                             Atlantic Ecology Division



Corrective Actions Taken   The Acting Director was responsive to our findings
                           and started implementing corrective actions at the
                           time of our review. Also, prior to our review, AED
                           hired a new ADPO and contract Project Officer with
                           strong backgrounds in their respective areas. We
                           believe the current AED staff in general is motivated
                           to carry out their responsibilities. However, Senior
                           Management needs to be more attentive to staff
                           concerns in administrative areas. While science may
                           be Senior Management’s focus, they are also
                           responsible for assuring that Agency resources are
                           effectively utilized as well as protected from waste,
                           fraud, and mismanagement; and that all Federal laws
                           and regulations are followed (May 13, 1998 EPA
                           Order 1000.24 CHG1).



Event Cycle Reports        As part of AED’s FMFIA process, the EMS
Not Addressed              prepared Event Cycle reports which identified
                           weaknesses in an accountable area and provided
                           recommendations for improvement. Event Cycle
                           reports were issued for contract management on
                           June 13, 1996 and property management on April 22,
                           1996. These reports were well documented and
                           presented. However, weaknesses identified in 1996
                           continued in 1999. AED Senior Management needs
                           to develop a formal resolution process to take full
                           advantage of this asset.

Contract Management        In the contract management report, the EMS
                           concluded:

                                 Overall, the Director should feel the need to
                                 update this area of accountability. The items
                                 noted above are repeated from the last Office
                                 of Inspector General report. No corrective
                                 action appears to have been taken.


                                   13                        Report No. 2000-P-00015
                                                          Audit of Extramural and
                                                      Property Management at the
                                                         Atlantic Ecology Division



                      The EMS also wrote, “There were instances of the
                      appearance of fraud, waste or abuse.” The EMS’
                      report was based upon a review of the O&M contract.
                      Several recommendations were made to improve the
                      performance of the Project Officer. This Project
                      Officer was also responsible for the O&M contract
                      during the prior OIG audit.

                      The EMS gave a presentation of her findings to the
                      Acting Director and ADPO on June 26, 1996. The
                      Project Officer responded in writing to the EMS’s
                      findings and recommendations on August 6, 1996.
                      The EMS was not satisfied with the PO’s written
                      response. Another meeting was held on October 14,
                      1996. The EMS said there was no formal written
                      agreement among the parties on appropriate
                      resolution.

                      The Acting Director said the ADPO and he met on a
                      weekly basis with the PO to assist him. However, the
                      Acting Director also stated that the individual did not
                      possess good contract management skills, but was
                      doing his best.

                      This individual eventually retired in August 1998.
                      Subsequently, two people who had limited contract
                      management experience were assigned the PO
                      duties until a permanent PO was assigned in July
                      1999.

                      There was no satisfactory resolution to the EMS
                      report. Poor contractor oversight continued from
                      1996 to 1999 (See Chapter 3).

Property Management   The Acting Director said he did not realize that there
                      were serious problems with property management.
                      He based his opinion on the EMS April 22, 1996
                      Event Cycle report. In our opinion, the EMS’ report
                      conclusion did not adequately convey the


                               14                        Report No. 2000-P-00015
                                                        Audit of Extramural and
                                                    Property Management at the
                                                       Atlantic Ecology Division



                    seriousness of her findings and may have contributed
                    to the Acting Director’s view. The EMS concluded:

                          There are multiple instances where specific
                          Property is not fully in compliance with
                          regulations and the system lacks sufficient
                          safeguards in place to ensure compliance with
                          regulations. ... The majority of the items noted
                          above are minor in nature.

                    We disagree with her conclusion that the issues were
                    minor in nature based upon what she wrote in the
                    body of her report. The EMS wrote that while there
                    were no obvious instances of fraud, waste or abuse,
                    “the potential for such instances is definitely there.”
                    She also wrote, “Written policies and procedures are
                    not in place for effective property control.”

                    However, regardless of the tone of the conclusion,
                    the report contained recommendations which needed
                    to be addressed. As of our review in 1999, these
                    recommendations were still outstanding. Findings
                    which had been reported in 1996 continued into1999
                    (See Chapter 4).



NHEERL Management   In its September 29,1998 Management Review of
Review              AED, NHEERL expressed concern with the amount of
                    documentation the EMS generated in her reviews.
                    NHEERL wrote:

                          The review team found an abundance of
                          evidence in the files documenting the EMS’
                          audit efforts. It is evident that in all cases, the
                          EMS thoroughly researches each situation and




                             15                        Report No. 2000-P-00015
                                   Audit of Extramural and
                               Property Management at the
                                  Atlantic Ecology Division

      prepares written documentation describing the
      results of her research. This documentation
      cites federal regulation, policy, rulings, etc.
      Unfortunately, this review team found the level
      of documentation to be somewhat
      overwhelming.

NHEERL then recommended that the EMS ensure
that a less paper intensive means of advising AED
staff with extramural issues is provided. It further
stated that the EMS should work toward the goal of
evolving into more of an advisory and/or counseling
role. AED responded that EMS did work in the
capacity of an advisor/counselor and preferred to
keep documentation for reference. NHEERL then
stated:

      While the EMS may choose to keep this
      extensive background documentation in her
      files, we recommend that a more concise
      record of counsel and/or advice be provided to
      extramural managers.

We are concerned that NHEERL’s comments may
impair one of AED’s effective means of overseeing
extramural management. In our opinion, the EMS did
a good job of identifying area weaknesses and
providing recommendations. AED now needs to
establish a formal system to assure that the
recommendations are carried out. We would not be
writing this report if the 1996 EMS recommendations
had been resolved.




         16                       Report No. 2000-P-00015
                                                       Audit of Extramural and
                                                   Property Management at the
                                                      Atlantic Ecology Division



CONCLUSION        Since the 1993 OIG audit report, AED made progress
                  in cooperative agreement management but limited
                  progress in contract management. While the issue of
                  property management had not been reported in the
                  OIG report, it was an outstanding issue back to the
                  1996 EMS report. AED management believed that
                  recently hired staff would help to improve operations.
                  However, even the most qualified staff need
                  management support. In our 1993 report, we
                  concluded that:

                         ... a major contributing cause that permeates
                         all of the issues at Narragansett is the attitude
                         exhibited by senior management officials that
                         compliance with rules and regulations
                         interferes with science and research. This
                         attitude must change if Narragansett is to
                         improve its management of contract activities.

                  We believe this attitude still exists to the detriment of
                  administrative operations. Administrative functions
                  are not given the attention required to assure that
                  resources are being effectively used. Good
                  administration supports the scientific mission of the
                  lab. AED has staff committed to their duties, but they
                  also need senior management’s support.



RECOMMENDATIONS   We recommend that the AED Director:

                  1.     Instruct the ADPO to establish contract and
                         property management procedures which will
                         ensure that staff, contract, and property
                         resources are used effectively and that
                         property is safeguarded. Also, the ADPO
                         should ensure that the procedures are
                         followed and delivering results.


                           17                         Report No. 2000-P-00015
                                                   Audit of Extramural and
                                               Property Management at the
                                                  Atlantic Ecology Division

               2.    Take appropriate action if staff does not
                     perform in accordance with established
                     procedures and performance agreements.

               3.    Develop a formal system to resolve
                     weaknesses identified in Event Cycle Reports.
                     A corrective action plan should be developed
                     with specific staff identified to carry out
                     actions. Milestones should be set and
                     progress along with success should be
                     measured.

               4.    Seek out expert assistance from Headquarters,
                     Research Triangle Park, etc.



ORD RESPONSE   ORD’s Assistant Administrator (AA) responded:

                     ORD considers OIG audits very seriously. We
                     look upon them as an opportunity to identify
                     areas of improvement. While “sound science”
                     is our goal as an organization, we strongly
                     believe that it must be achieved with quality
                     management of our resources. For that
                     reason, we were concerned by the statements
                     in the draft report attributed to the AED Acting
                     Director. I assure you that these management
                     issues are given the highest priority in all ORD
                     organizations, including NHEERL.

               Regarding contracting, the AA wrote:

                     The contract management vulnerabilities
                     described in this report were initially raised by
                     the AED Extramural Management Specialist
                     (EMS), in June 1996. Also, AED contractual
                     problems were carefully outlined in a 1997
                     NHEERL Management Review. We are



                       18                         Report No. 2000-P-00015
                                    Audit of Extramural and
                                Property Management at the
                                   Atlantic Ecology Division



      currently implementing corrective action in this
      area.

      Finally, we believe that AED has made
      considerable improvement in overall
      extramural management. Largely, the
      weaknesses discussed in the 1993 OIG audit
      have not reoccurred. We are concerned that
      the current draft report makes general
      conclusions about AED’s contract
      management progress based on AED’s
      problems with a single contract (O&M), which
      had already been identified by both the EMS
      and an NHEERL Management Review.
      Moreover, at the time of the OIG audit,
      significant corrective actions had been made
      or were in progress. For example, a new
      Project Officer was hired and a new contract
      was in the solicitation process. Further, as we
      discussed in our teleconference, we strongly
      believe that the Contract Management Division
      shares our responsibility for the effective
      contract management.

Regarding property management, the AA reported
that since the time of the audit, AED made significant
progress in strengthening this area.

For both areas, the AA wrote:

      ORD believes it is important that the final audit
      report reflect the staffing difficulties that AED
      was experiencing throughout its contractual
      and property problems. The report should
      show that AED was without a permanent
      Associate Director for program operations from
      February 1996 to April 1998. The vacancy of
      this critical administrative supervisory position
      exacerbated the timeliness and effectiveness


         19                        Report No. 2000-P-00015
                                                    Audit of Extramural and
                                                Property Management at the
                                                   Atlantic Ecology Division



                       of AED’s ability to remedy problems in both
                       extramural and property management.

                 Additionally, further clarification was provided on
                 NHEERL’s Management Review comments regarding
                 the EMS reviews:

                       The NHEERL Management Review report did
                       not question the EMS’s reviews of extramural
                       management. That is one of the important
                       duties of the EMS. What was of concern in the
                       review was the effectiveness of the extensive
                       documentation that the EMS put in the PO’s
                       files as a result of the review. The NHEERL
                       Management Review recommended that a
                       more concise and effective means of
                       communication (e.g., advising, counseling) be
                       utilized by the EMS to help the AED PO’s in
                       solving their extramural management
                       problems.

                 ORD also provided a Correction Action Plan (See
                 Appendix 4) responding to each of the finding’s
                 recommendations.



OIG EVALUATION   We are pleased that ORD gives the highest priority to
                 management issues. We encourage ORD to
                 continue to emphasize this view to AED. It was our
                 opinion based not only upon the Acting Director’s
                 comments, but also his actions, that administrative
                 issues did not receive adequate attention. For
                 example, the EMS’ report recommendations were not
                 fully implemented. Also, the Property Manager’s
                 concerns were not timely acted upon.




                         20                        Report No. 2000-P-00015
                                    Audit of Extramural and
                                Property Management at the
                                   Atlantic Ecology Division



The OIG initially reported that AED’s contract
management controls were inadequate in 1993. The
EMS reported in 1996 that there appeared to be no
corrective action taken since the 1993 OIG audit and
that contract management was an accountable area
which needed to be updated. NHEERL management
reviews continued to report on contract management
deficiencies until 1998. While we reported that AED
made some improvements in contract management,
its management of the O&M contract continued to be
deficient since 1993. In our opinion, this was too long
a period of time for continued weaknesses to exist,
particularly when NHEERL’s/AED’s staff pointed out
these weaknesses.

While the ADPO position was vacant for over two
years, the position was filled with a permanent
manager during the time of the OIG audit to 1996.
ORD did not explain why it took more than a year to
start the recruitment process for this position.
However, while having someone in this position is
important, AED also needs to assure that good
contract and property management procedures are in
place which can also help to keep operations running
effectively.

The audit report already included the information that
the ADPO position was vacant for two years.
However, per request of ORD, we included in the
finding a paragraph prepared by ORD regarding this
issue.

The scope of our audit did not include a review of
Contract Management Division (CMD) activities.
However, if AED believes CMD is not fulfilling its
responsibilities, then AED Senior Management
should deal with this problem at the appropriate
management level.



         21                        Report No. 2000-P-00015
                                   Audit of Extramural and
                               Property Management at the
                                  Atlantic Ecology Division



We concur with ORD’s actions to improve property
management.

Regarding the effectiveness of the EMS’
documentation of her reviews, we continue to support
the EMS’ position. We believe documentation is
important to clearly support recommendations which
may be proposed.

We generally concur with ORD’s Corrective Actions
for this Chapter. However, based upon ORD’s
response, we need to clarify Recommendation 1.
This recommendation was not specifically referring to
providing contractors with government property.
Rather, we believe, AED needs to have strong
procedures in contract management and property
management which will provide for consistent and
effective operations in these two areas. Points 2 and
3 of AED’s response generally address
Recommendation 1 except for not specifically noting
that contract procedures will be reviewed and
updated as appropriate.




        22                        Report No. 2000-P-00015
                                                           Audit of Extramural and
                                                       Property Management at the
                                                          Atlantic Ecology Division




                       CHAPTER 3
      LIMITED IMPROVEMENT IN CONTRACT MANAGEMENT


                       AED’s progress in improving contract management
                       was limited. While management of the ADP contract
                       was adequate, management of the Operations &
                       Maintenance (O&M) contract continued to be
                       seriously deficient. The Project Officer did not ensure
                       that the Contractor provided all contracted services
                       and in some cases, separately procured work already
                       included in the O&M contract. Until recently, the
                       O&M Project Officers lacked either the skills or
                       experience necessary to effectively manage the
                       contract. Senior Management did not ensure that
                       these Project Officers had access to the appropriate
                       technical expertise needed to properly evaluate a
                       Contractor’s performance.

                       “The Project Officer is the primary representative of
                       the Contracting Officer for a contract,” according to
                       EPA’s Contracts Management Manual, Chapter 7,
                       Paragraph 3c. Among other duties, the Project
                       Officer is responsible for monitoring compliance with
                       the contract and recommending modifications of the
                       contract to the Contracting Officer as needed.



Prior Audit Findings   Our June 16, 1993 audit report, Management of
                       Extramural Resources at the Environmental Research
                       Laboratory, Narragansett, Rhode Island reported that
                       contract management controls were inadequate.
                       Project Officers at Narragansett did not properly
                       manage the work and activities performed by the
                       Contractors. The Project Officers: (1) allowed


                                23                        Report No. 2000-P-00015
                                                          Audit of Extramural and
                                                      Property Management at the
                                                         Atlantic Ecology Division




                      contract employees to perform inherently government
                      functions; (2) did not control Contractor costs; and (3)
                      did not monitor Contractor work.



EMS Report Findings   In her June 13, 1996 Event Cycle Report on Contract
                      Management, the EMS reported: “Overall, the
                      accountable area has many issues to be resolved.
                      There were instances of the appearance of fraud,
                      waste, or abuse.” She concluded: “The items noted
                      above are repeated from the last Office of Inspector
                      General report. No corrective action appears to have
                      been taken.” The EMS report specifically covered
                      management of the O&M contract. Deficiencies
                      reported included: inadequate management of work
                      orders; EPA approved unallowable expenses;
                      personal services performed by the Contractor; and
                      outside Contractors tasked with work assignments by
                      the O&M Contractor rather than by the AED Project
                      Officer.



O&M Contract          The O&M Contractor was to provide facilities
                      operation and maintenance support for the entire
                      laboratory (i.e., dry and wet laboratories, office
                      space, field equipment, general support services).
                      The contract’s period of performance was October 1,
                      1994 until September 30, 1999 with a total cost of
                      $3,911,901.

                      Our follow-up review disclosed that three years after
                      the EMS report and six years after the OIG report
                      were issued, the O&M contract continued to be poorly
                      managed. A poorly written Statement of Work (SOW)
                      along with weak oversight by the Project Officer
                      enabled the O&M Contractor to disregard contract

                               24                        Report No. 2000-P-00015
                                                            Audit of Extramural and
                                                        Property Management at the
                                                           Atlantic Ecology Division

                        provisions without reprisal. For example, the
                        Contractor did not adequately update SideArm, a
                        computer system for tracking maintenance or perform
                        all contracted tasks. In response to our 1993 findings,
                        ORD provided Project Officer training to their staff
                        and emphasized that Federal regulations were to be
                        followed. However, when the EMS report indicated
                        that such actions had not been sufficient to address
                        our concerns, AED Senior Management did not take
                        further corrective action. The Acting Director said the
                        Project Officer did not have contract management
                        skills and there was no one else qualified to take his
                        place.

                        The Acting Director believed EPA’s Contract
                        Management Division (CMD) also shared
                        responsibility for the quality of the SOW. He stated
                        that CMD did not provide adequate assistance to
                        AED. The EMS contacted CMD several times over
                        the course of the O&M contract and sent the Event
                        Cycle Report on contracting to CMD.

                        The scope of our audit did not include a review of
                        CMD so we cannot comment on their operations.
                        However, if the Acting Director was dissatisfied with
                        CMD’s assistance, he should work with his
                        counterparts to improve CMD’s and AED’s
                        relationship.

“Vague” & “Ambiguous”   According to the Acting Director, the SOW for the
 Statement of Work      O&M contract was written by the retired Project
                        Officer and the former ADPO. The Contracting
                        Officer described the SOW as “vague” and
                        “ambiguous”. As a result, the Contracting Officer
                        believed that EPA could not seek redress from the
                        O&M Contractor for not fully complying with the
                        contract terms. For example, the Contractor had not
                        updated architectural drawings because the contract
                        was not clear regarding the Contractor’s
                        responsibility to do so.


                                 25                        Report No. 2000-P-00015
                                   Audit of Extramural and
                               Property Management at the
                                  Atlantic Ecology Division




The Contractor did not update “SideArm”, a
mechanized system to account for preventive
maintenance tasks and equipment. This deficiency
was identified in the NHEERL Management Review
98-03 dated September 29, 1998. The report stated
in part;

      Under the scope of the O&M contract
      successful installation and implementation of
      the SIDEARM software (MMS) is required.
      Under the O&M SOW, EPA provides this MMS
      software product for the Contractor to load,
      and both the Contractor and EPA utilize this
      computer application system. However, we
      discovered that the data is not fully loaded,
      and the MMS requirement is not implemented.
      The resulting effect is the Contractor is not
      performing according to the scope of the
      contract and therefore has breached the terms
      of the contract.

      Additionally, the EPA PO has failed to take
      advantage of a progressive performance
      management tool that, although not by itself,
      would assist in addressing some of the critical
      contract issues that have been identified in this
      management review. EPA has paid for the
      installation of a piece of software, that is not
      being utilized.

The NHEERL review recommended that the Acting
Director ensure that the EPA Project Officer use the
software and require the Contractor to use software,
as required in terms of the contract. The AED
Director concurred with this recommendation.

However, the Contractor could not be held
responsible for breach of contract according to the


         26                       Report No. 2000-P-00015
                                                                  Audit of Extramural and
                                                              Property Management at the
                                                                 Atlantic Ecology Division

                              Contracting Officer. She stated that the contract was
                              vague regarding the use of SideArm and the Project
                              Officer did not direct the Contractor to use the
                              system. In fact, AED was unaware that the
                              Contractor was inputting data into SideArm until May
                              1999, nearly five years after the contract was
                              executed. However, EPA did not have a method to
                              verify the accuracy of the data entered according to
                              the Contracting Officer.

                              For the remaining period of the contract, AED and the
                              Contracting Office were working with the Contractor
                              to identify/verify and update information in SideArm.
                              The Contracting Officer said the succeeding contract
                              to be executed would have a detailed description of
                              the Contractor’s responsibilities regarding use of any
                              computerized system to be used.

                              AED Senior Management and EPA’s Contracting
                              Officer decided not to make significant modifications
                              to the existing contract. Rather, they concentrated on
                              strengthening the upcoming contract.

Project Officer Performance   Not only was the contract SOW deficient, but also the
                              retired Project Officer’s monitoring of the O&M
                              contract. The Contractor, not the Project Officer
                              controlled the work orders. The Project Officer did
                              not ensure that the Contractor performed all the
                              preventive maintenance required in the contract.
                              Also, the Project Officer procured services which the
                              O&M Contractor could have provided under the
                              existing contract. Some of the poor contract
                              management practices continued with the interim
                              Project Officers.

                              Once a work order was issued, the Project Officer
                              abdicated complete control to the Contractor. This
                              was a weakness not only with the retired Project
                              Officer’s administration but with the interim Project
                              Officers as well. AED had no procedures to ensure


                                       27                        Report No. 2000-P-00015
                                                            Audit of Extramural and
                                                        Property Management at the
                                                           Atlantic Ecology Division

                         that the O&M Contractor completed the work timely or
                         satisfactorily. Incomplete or untimely work created
                         potential safety hazards in some cases. For
                         example, wires remained uncovered and emergency
                         showers were not inspected.

                         EPA’s Contracts Management Manual Chapter 7,
                         Attachment A describes the duties to be performed by
                         Project Officers. Such duties include monitoring,
                         inspection, and acceptance. Paragraph 16 of the
                         aforementioned reference states that Project Officers:

                               Monitor compliance with the contract. Inspect,
                               accept and/or track deliverables. Identify,
                               document and report potential or actual
                               problems (including potential conflicts of
                               interest, constructive changes) to the CO.
                               Provide technical direction (if permitted in
                               accordance with the terms of the contract).

Control of Work Orders   The O&M Contractor completed and maintained work
                         order information until the beginning of our audit in
                         May 1999. The Project Officer stated the Contractor,
                         not AED, entered data from work orders into the
                         status program including the start and completion
                         dates. The Contractor also filled-out the portion of
                         the work order form dealing with estimated and actual
                         hours to complete the work as well as estimated and
                         actual material costs. The Contractor physically
                         possessed all work order documents. In our opinion,
                         such a system was not conducive to good project
                         management.

                         Because AED scientists wanted to know the status of
                         their work orders, the ADP Contractor was tasked
                         with developing a system to track work orders. AED
                         officials approved this system in March 1998. The
                         EMS stated that the Project Officer or another EPA
                         employee was supposed to enter work order
                         information into the system but instead the O&M


                                  28                       Report No. 2000-P-00015
                                     Audit of Extramural and
                                 Property Management at the
                                    Atlantic Ecology Division

Contractor was actually entering the information.
AED did have access to the Contractor’s information
but there was no evidence of oversight by AED staff
to verify the accuracy of the information entered.
Additionally, procedures were not in place to ensure
the Project Officer or the requestor signed the
completed work order certifying that the Contractor’s
work performed was timely and acceptable. As a
result, there was no documented evidence that work
orders were timely completed to the requesters’
satisfaction per the work order request.

The interim Project Officer stated he didn’t know if the
Contractor completed work orders within prescribed
times as EPA did not have control of the work orders.
He did know, that based on his recent review of work
orders, that the Contractor takes longer than
necessary to do routine work such as painting doors.
He stated, “for example I believe the computer room
renovations that [the Contractor] did should have
taken two weeks not six months. Sometimes [the
Contractor] does work assignments different than the
work order requested, and therefore, different than
the EPA employees needed.” Currently there is a
lack of EPA management oversight and
documentation to show the work was satisfactorily
completed.

On August 20, 1999 the interim Project Officer stated
that now he visually spot checks work orders to make
sure the work is being done. He also stated the
Contractor controls and enters data into the
computerized work order system. However, no AED
official signs off on the work order certifying that the
work was satisfactorily completed because AED does
not have a procedure to determine that the work was
in fact done. The Project Officer said controls over
work orders will be improved under the new contract
which will be effective October 1, 1999.



         29                         Report No. 2000-P-00015
                                     Audit of Extramural and
                                 Property Management at the
                                    Atlantic Ecology Division

Our review of 55 work orders (10 percent) issued
during FY 97, showed that approximately 93
percent of the work orders were not signed by any
AED employee as accepting the work. Requiring the
Project Officer or the requester to sign the work order
certifying that the work performed was acceptable
and timely completed would eliminate this problem.
The Project Officer also stated, “Sometimes [the
Contractor] did assignments based on a verbal
request of an EPA employee without waiting for a
work order which might be written after the fact.” He
stated, “there is an appearance that the Contractor is
running the place.”

One of the interim Project Officers stated that he
brought his concerns regarding the management of
work orders and other issues to the attention of the
ADPO on or about January 1999. He said the ADPO
told him nothing new was to be done regarding the
O&M contract because a new Project Officer was to
be hired and a new O&M contract was to be awarded
in October 1999.

The ADPO, who arrived at AED in April 1998,
explained that he first became aware of problems in
contract management when he received the NHEERL
draft management review in August 1998. The
retired Project Officer never informed him of any
contract management problems, therefore, as far as
he knew there weren’t any problems. He stated that
he was a manager, not a subject matter expert.
Therefore, he relied on his Project Officers to keep
him informed of any and all contract problems. He
believed the retired Project Officer tried to do the best
job he could, but he was limited in his skills to
effectively manage the contract.

The AED Acting Director said most people in the
laboratory were scientists and he didn’t have anyone
qualified who could take over the Project Officer


         30                         Report No. 2000-P-00015
                                   Audit of Extramural and
                               Property Management at the
                                  Atlantic Ecology Division

position. He stated that the principal purpose of the
laboratory was science but acknowledged that there
was no excuse for poor contract management. He
didn’t believe the nature of the problems with the
O&M contract affected laboratory operations and he
was assured by his managers that corrective actions
resulting from previous audits were taken.

A discussion with the AED Safety Officer showed how
the work order system functioned and how untimely
work orders could affect safety at the lab. He said he
did not see work orders once they were submitted.
The only way he could tell if the work was done, was
to walk around the facility and check on it when he
could. Sometimes he did not know for several weeks
or months that a job was still pending. He said some
of the work orders submitted were marked as
“completed” when the work had not been done. He
said the O&M Contractor’s Project Manager had been
entering information into the computerized work order
system rather than the AED Project Officer. He said
the intent of the system was to allow the AED Project
Officer to review the Contractor’s work and keep the
AED staff informed of the status of the work orders.
He said the program did not work as intended.

The Safety Officer provided the following examples
as specific instances when laboratory safety was
compromised due to untimely work by the Contractor.

1.    Work Order #97-232, dated 2/25/97: The
      Contractor was instructed to make electrical
      repairs in the wet lab. There were uncovered
      wires and switch boxes in various places, a
      safety hazard. Even though the work order
      was marked as completed in the database, the
      work was never done.




         31                       Report No. 2000-P-00015
                                                              Audit of Extramural and
                                                          Property Management at the
                                                             Atlantic Ecology Division




                         2.     Work Order # 99-115, dated January 13,
                                1999: Contractor was instructed to check for
                                electrical shorts in the oven. Again, the work
                                order was marked as completed even though
                                there is still a stray voltage problem with this
                                equipment.

                         The Safety Officer also identified 15 findings the
                         Contractor was responsible for in the July 1996 U.S.
                         EPA Safety, Health, and Environmental Review. Five
                         of the 15 findings were classified as “Priority B” which
                         was defined as deficiencies that could lead to
                         regulatory enforcement action or to unacceptable
                         safety, health and environmental risk. (See Appendix
                         1 for details.)

Preventive Maintenance   The Contractor did not perform all preventive
                         maintenance required by the O&M contract. While
                         AED was fortunate that no serious accidents
                         occurred, the staff and facility were left vulnerable. It
                         was the Project Officer’s responsibility to ensure that
                         the Contractor met all the terms of the contract.

                         In response to a memorandum initiated by the AED
                         Project Officer, the Contracting Officer sent a letter
                         dated September 14, 1999 to the O&M Contractor
                         describing contractual and performance issues
                         requiring corrective action. We believe these
                         deficiencies resulted from the lack of adequate
                         oversight by the Project Officer. The Contracting
                         Officer wrote that the following critical items, systems,
                         and tasks either are not being maintained/tested as
                         specified in the contract or do not have records to
                         indicate maintenance/testing have been performed.

                         1.     Electrical Systems

                         2.     Water, Drain & Distribution Systems


                                  32                         Report No. 2000-P-00015
                                                            Audit of Extramural and
                                                        Property Management at the
                                                           Atlantic Ecology Division




                       3.     Other Laboratory Support and Distribution
                              Systems

                       4.     Fire Protection System

                       5.     Field equipment

                       6.     No unscheduled “work order” maintenance and
                              repair had been recorded for any item.

                       7.     Laboratory Lift Trucks

                       The Contracting Officer’s letter further stated;

                              In general, the records demonstrate that
                              services are not being performed as specified
                              (e.g. the contract requires daily, monthly,
                              quarterly, semi-annual, and annual services on
                              “HVAC and Boiler” but records indicate that,
                              depending on the item, only semi-annual or
                              annual services were performed).

                       The AED Safety Officer said that not all the
                       emergency showers had been inspected yearly by
                       the Contractor as required. Again, while no accidents
                       occurred, such actions put the safety of the AED staff
                       at risk. Poor contract monitoring not only resulted in
                       health and safety concerns, but also wasted
                       resources.

Procurement Requests   The former O&M Project Officers purchased $6,587
                       of services already included in the O&M contract
                       during Fiscal Years 1998 and 1999. For the same
                       time period, 13 purchase order requests were
                       processed for supplies which should have been
                       charged on the Contractor invoices. Another 15


                                33                         Report No. 2000-P-00015
                                         Audit of Extramural and
                                     Property Management at the
                                        Atlantic Ecology Division

items/services procured were questionable but a final
determination could not be made because a clear
cost breakdown was not available. Not only did AED
unnecessarily expend limited lab funds for services
already included in the contract, but additional
administrative resources were unnecessarily used in
processing these procurement requests. The current
Project Officer did not know why these purchase
orders were requested.

The following schedule shows services purchased
separately which were already included in the O&M
contract.

   PO    Request     Service Description      Cost *   Contract
   No.    Date                                           Ref.

 8N-     09/25/97   Provide service for       $ 568    B.5.1.4.
 0100-              Freezer
 NNSA

 8N-     10/14/97   Provide service to        $ 475    B.5.1.1
 0149-              evaluate trouble with              B.5.3.1.
 NNSA               speed control for the
                    return and supply fan
                    on Air Handler

 8N-     11/12/97   Emergency Service         $ 262    B.1.
 0188-              for Underground
 NNSA               Storage Tank
                    Monitoring Systems

 8N-     11/20/97   Replace defective fire    $ 500    D.6.2.
 0189-              alarm zone module
 NNSA

 8N-     12/23/97   Provide emergency         $ 420    D.4.8.
 0232-              services to main sea
 NNSA               water filtering system

 8N-     12/18/97   Install weather           $ 285    D.10.
 0233-              stripping on Lobby
 NNSA               doors




         34                               Report No. 2000-P-00015
                                           Audit of Extramural and
                                       Property Management at the
                                          Atlantic Ecology Division


   PO     Request    Service Description        Cost *   Contract
   No.     Date                                            Ref.

 8N-     01/29/98   Re-set pre-action           $ 500    D.6.3.
 0273-              valve in the
 NNSA               Hazardous Storage
                    Bldg.

 8N-     03/20/98   Replace broken glass        $ 368    D.10.
 0342-              in the Lobby
 NNSA

 8N-     03/25/98   Lift Truck Repairs          $ 763    B.10.
 0348-
 NNSA

 8N-     05/08/98   Provide repairs to          $1,063   D.5.2.
 0395-              fiberglass pipe
 NNSA               supplying seawater to
                    the Laboratory

 8N-     06/11/98   Recondition 4               $ 375    D.12.3.
 0488-              stainless steel
 NNSA               propellers

 8N-     09/04/98   Close up boiler #1, set     $ 504    D.1.6.
 0639-              fires, perform
 NNSA               efficiency test

 8N-     09/04/98   Close up boiler #2, set     $ 504    D.1.6.
 0641-              fires, and perform
 NNSA               efficiency test

                                      Total *   $6,587

                * Amounts rounded


In addition to the services described above, a blanket
purchase order was authorized for snow removal.
The agreement terms, in part, listed clearing all
walkways for $20 per hour. According to the contract,
paragraph D.10, the Contractor shall maintain the
general physical plant. The Contractor shall provide
general facilities maintenance as follows: provide
snow removal for sidewalks and pedestrian ramps.

According to Section F.1 of the contract:

         35                               Report No. 2000-P-00015
                                             Audit of Extramural and
                                         Property Management at the
                                            Atlantic Ecology Division

       The contractor shall provide the necessary
       supplies, material, and spare parts for the
       operation, maintenance, and repair of the
       Laboratory facility and systems. The
       Contractor shall maintain quantity levels
       appropriate with their approved maintenance
       schedule. Advance approval from the Project
       Officer is required for any single purchase
       order of $200 or greater. The Contractor shall
       not purchase any supplies, material, or parts
       with a unit cost of $1,000 or greater.

The Contractor was to provide a variety of supplies,
materials, and parts for use in carpentry, plumbing,
and electrical work as well as maintenance of field
equipment and vehicles.

Section B.2 (d) of the contract, “Consideration and
Payment for Line Items”, provides that costs for
supplies and services were to be “vouchered” every
two weeks for the actual cost, including mailing and
shipping costs, incurred during the preceding two
weeks with no added cost or fee.

Contrary to the above contract provisions, AED’s
former Project Officers submitted purchase order
requests for supplies which should have been
included on the Contractor invoices. These items
included:

   P.O. #          Date         Supplies Purchased            Cost *

 8N-0181-        09/18/97   Electric Strike Folger        $       640
 NNSA

 8N-0190-        11/18/97   Fan Shaft (Penn Ventilator)   $       206
 NNSA

 8N-0207-        11/24/97   Flourescent fixtures &        $       458
 NNSA                       electronic ballasts




            36                               Report No. 2000-P-00015
                                              Audit of Extramural and
                                          Property Management at the
                                             Atlantic Ecology Division


   P.O. #          Date         Supplies Purchased               Cost *

 8N-0219-        12/16/97   Aluminum Fan Wheel,              $       840
 NNSA                       Shaft (fan wheel)

 8N-0367-        04/08/98   Bandsaw Blade                    $        47
 NNCX

 8N-0396-        05/08/98   C.S. Shaft                       $       270
 NNSA

 8N-0519-        07/07/98   Air Conditioner                  $       784
 NNSA

 8N-0548-        07/27/98   Parts needed for freezer         $       151
 NNSA

 8N-0571-        08/12/98   Door closers, hinges, and        $       472
 NNSA                       shims

 8N-0601-        09/16/98   30 gallon barrels                $     1,386
 NNSA

 9N-0139-        12/15/98   Fuel conditioner, grease,        $       830
 NALX                       fog spray, fog oil, spark
                            plugs, plug installer,
                            gearcase leak check, safety
                            chains, lugnuts, keel roller,
                            roller pin

 9N-0241-        03/19/99   Drain plugs, battery, 3"         $       463
 NNSA                       blower mower, electrical
                            panel

 9N-0300-        04/26/99   Filter holder model,             $ 620
 NNSA                       pressure regulator/ball
                            valve/pressure gauge &
                            fittings assembly & manual

                                                     Total   $7,167 *

                    * Amounts Rounded


In our opinion, the former Project Officers’ submission
of such purchase orders showed their lack of
familiarity with the contract. Discussions with the
current Project Officer indicated that he was better
acquainted with the terms of the contract. He also
questioned the appropriateness of these requests.

            37                                  Report No. 2000-P-00015
                                                             Audit of Extramural and
                                                         Property Management at the
                                                            Atlantic Ecology Division

                        The Acting Director recommended that the EMS
                        review procurement requests to assure that contract
                        provisions were met. We concur with his
                        recommendation.

ADP Contract            The ADP contract was adequately managed but
                        improvements could be made in tracking work orders
                        and working with the alternate Project Officer for this
                        contract. The ADP Project Officer properly
                        documented and reviewed the invoices but could use
                        EPA’s checklist to aid in his review.

Work Order Management   The Project Officer effectively managed the work
                        orders except for ensuring Contractor timeliness in
                        completing work. We judgmentally selected and
                        reviewed 25 of 95 work orders issued during the
                        period January through May 1999 to determine if
                        work orders were effectively managed. We
                        determined that the Project Officer, not the
                        Contractor, maintained control over the work orders.
                        The Project Officer estimated the hours to complete
                        the work and certified that the work performed was
                        within the scope of the contract and done to the
                        satisfaction of the requestor.

                        Each completed work order was signed by the
                        requester stating that the Contractor satisfactorily
                        completed the work requested. The ADP Project
                        Officer developed this work order format. We
                        strongly recommend that the O&M Project Officer
                        adopt this format.

                        However, work was not always done on a timely
                        basis. Twelve of the twenty-five work orders
                        reviewed were not completed timely. Four of the 12
                        untimely work orders were designated as emergency
                        actions. Emergency requests were late from four to
                        28 days. The Project Officer stated that he does not
                        have an effective system to track the timely
                        completion of work orders. He agreed to establish a

                                 38                         Report No. 2000-P-00015
                                                       Audit of Extramural and
                                                   Property Management at the
                                                      Atlantic Ecology Division

                   computerized tracking system to ensure that work is
                   completed timely.




No Alternate       The alternate Project Officer for the ADP contract
Project Officer    said that the Project Officer did not allow him to
                   perform his duties as alternate. Even on vacation,
                   the ADP Project Officer instructed staff to have all
                   contract business sent to his residence. The Acting
                   Director said the Project Officer did not have
                   confidence in the Alternate’s ability to understand the
                   nature of work. At the time, AED lacked appropriate
                   personnel. The Acting Director said he would be
                   assigning another person with the appropriate
                   background as Alternate.

Adequate Invoice   Contractor invoices for the period October 31,
Review             1997 through February 3, 1999 were properly
                   documented and reviewed by the ADP Project Officer
                   prior to being submitted for payment. All costs were
                   verified with the Contractor’s monthly progress report.
                   However, the Project Officer was not attaching a copy
                   of the required checklist which was intended as an
                   aid to the Project Officer in reviewing the invoices for
                   reasonableness, allowability, and allocability of
                   claimed Contractor costs. The EPA Invoice Review
                   Guide, dated November 1, 1995 states, “Copies of
                   the checklist should be attached to each invoice
                   before it is filed in the PO’s files.”

                   The ADP Project Officer stated that in the future he
                   would attach copies of the checklist to each invoice
                   before it is filed in his files.



CONCLUSION         AED’s retired Project Officer allowed the O&M
                   Contractor to control its work without adequate EPA


                            39                        Report No. 2000-P-00015
                                                     Audit of Extramural and
                                                 Property Management at the
                                                    Atlantic Ecology Division

                  oversight. Succeeding interim Project Officers could
                  not fully correct past poor contract management
                  practices. As a result, the Contracting Officer
                  believed that the O&M Contractor could not be held
                  responsible for its poor performance because EPA
                  wrote a poor SOW and provided inadequate
                  oversight. This was especially distressing since weak
                  contract management practices had been identified
                  by both the OIG in 1993 and AED’s EMS in 1996.
                  While the current Project Officer, who has a strong
                  contracts background, should improve operations,
                  AED also needs to establish procedures to ensure
                  that EPA and not the Contractor controls the work.
                  AED also needs to improve communication with the
                  Contracting Office and take advantage of the
                  Contracting Officer’s expertise when necessary.



RECOMMENDATIONS   We recommend that the Acting Director instruct the
                  O&M Project Officer to:

                  1.    Complete estimated hours and costs on work
                        order forms and maintain work orders.

                  2.    Develop a tracking system to document that
                        the Contractor performs all preventive
                        maintenance and submits deliverables in
                        accordance with the terms of the contract.

                  3.    Define time frames such as “routine”,
                        “emergency”, etc. given to the Contractor.

                  4.    Develop a tracking system to assure that work
                        was completed and completed on a timely
                        basis by Contractor.

                  5.    Use the work order form developed by the
                        ADP Project Officer for all contracts so that
                        requesters or other appropriate officials can

                          40                        Report No. 2000-P-00015
                                                  Audit of Extramural and
                                              Property Management at the
                                                 Atlantic Ecology Division

                     sign-off as approving completed Contractor
                     work.




               We also recommend that the Acting Director instruct:

               6.    The ADPO to meet weekly with the Project
                     Officers to review the status of work orders
                     and take corrective action as necessary.



ORD RESPONSE   In response to the Contract Officer’s statement that
               the O&M SOW was “vague” and “ambiguous”, ORD
               wrote:

                     The complexity and ambiguities of the SOW of
                     this contract were also noted in the 1997
                     NHEERL Management Review. It was the
                     opinion of the two former Contracting Officers
                     on that team that the contract was so complex
                     and ambiguous that it would be difficult for
                     anyone to manage. This is why we strongly
                     feel that it is of the utmost importance for the
                     Contracting Officer to work with the Project
                     Officer and EMS to ensure the award of a
                     clearly written, sound contract. We believe
                     that contract management is a team effort and
                     that CMD has shared responsibility in ensuring
                     that EPA can hold contractors responsible for
                     the work that they are getting paid to do.

               During our exit conference, NHEERL’s Management
               Deputy Director stated that developing an SOW was
               a joint responsibility between CMD and AED.



                        41                       Report No. 2000-P-00015
                                                     Audit of Extramural and
                                                 Property Management at the
                                                    Atlantic Ecology Division

                 ORD also provided a Correction Action Plan (See
                 Appendix 4) responding to each of the finding’s
                 recommendations.


OIG EVALUATION   In our opinion, inadequate Project Officer oversight
                 was a significant factor in the poor management of
                 the O&M contract. Even though systems had been


                 developed to assist the Project Officer in monitoring
                 the contract, the Project Officer never used these
                 systems. The Project Officer did not track Contractor
                 performance of preventive maintenance or ensure
                 that work was completed. A “complex” SOW would
                 not have prevented the Project Officer from
                 performing such basic monitoring responsibilities.

                 CMD activities were not included in the scope of our
                 audit. Our review was directed at AED activities and
                 responsibilities. However, ORD does make a good
                 point in noting that CMD shares responsibility. If AED
                 did not receive appropriate assistance from CMD,
                 then Senior Management should resolve this issue.
                 We do note that at the time of our audit CMD and
                 AED staff were working together to ensure that the
                 new O&M contract SOW would be stronger and
                 clearer in stating Contractor responsibilities.

                 We concur with ORD’s Corrective Actions for this
                 Chapter.




                          42                        Report No. 2000-P-00015
                                                 Audit of Extramural and
                                             Property Management at the
                                                Atlantic Ecology Division




             CHAPTER 4
IMPROVEMENTS NEEDED IN PROPERTY MANAGEMENT


               Improvements need to be made in AED’s property
               management. We found that: 1) custodial officer
               designations were out-dated; 2) annual inventories
               were not performed; and 3) the status of loaned
               equipment was unknown. The Property Officer and
               the Extramural Management Specialist (EMS)
               brought these weaknesses to the attention of Senior
               Management who did not take corrective action.
               Improving property management was not a priority.
               As a result, $6,212,611 of accountable property was
               not safeguarded.

               The AED Property Officer is an extremely
               conscientious individual who brought several property
               management concerns to the attention of the OIG in
               order to get these matters corrected. We agree that
               these matters are significant requiring Senior
               Management’s attention.

               In her April 22, 1996 Event Cycle report on property
               management, the EMS identified similar findings with
               recommendations. However, three years later, we
               found that these weaknesses were not addressed by
               Senior Management.

               According to EPA’s February 12, 1990 Personal
               Property Management Policy Manual, Property
               Managers and Custodial Officers are responsible for
               ensuring the efficient and effective implementation
               and maintenance of EPA’s personal property
               management program. At AED, the ADPO is
               responsible for the oversight of all administrative


                       43                       Report No. 2000-P-00015
                                                       Audit of Extramural and
                                                   Property Management at the
                                                      Atlantic Ecology Division



                    functions including property management. The
                    Property Officer reports to the ADPO. Custodial
                    Officers are appointed by Senior Management.

                    EPA’s Personal Property Policy Manual Chapter 1,
                    Para 5.8, states in part:

                          Office and Division Directors, Branch Chiefs,
                          or equivalents are directly responsible for the
                          establishment and continuous enforcement of
                          administrative directives and measures for all
                          items of government property under their
                          control. This includes property items carried in
                          the Agency Personal Property Accountability
                          System (PPAS) [information now entered into
                          IFMS], as well as items not carried in the
                          PPAS. Management of property must ensure
                          these items are properly acquired, used,
                          maintained and safeguarded.

                          Supervisory responsibility at all levels requires
                          the establishment and continuous enforcement
                          of all administrative measures necessary to
                          ensure adequate preservation and use of all
                          Government property under their jurisdiction.
                          This includes assigning Custodial Officers and
                          ensuring positions are filled at all times, as
                          well as, ensuring that the Custodial Officer’s
                          position description is amended to reflect
                          Custodial Officer duties.



Custodial Officer   Custodial Officers are key in safeguarding personal
Designations        property. EPA’s February 12, 1990 Personal
                    Property Management Policy Manual provides:

                          Acting under the general direction of an
                          organizational supervisor and under the

                            44                        Report No. 2000-P-00015
                              Audit of Extramural and
                          Property Management at the
                             Atlantic Ecology Division

technical direction of the Property Accountable
Officer or Program Accountable Officer, the
Custodial Officer is responsible for the proper
care, maintenance, utilization, accountability,
and security of personal property assigned to
the Custodial Area, and will be responsible for
the property until formally relieved of his/her
duties by the proper authority. Specific duties
include:

•        Informing his/her immediate supervisor
         of changes affecting the status of
         personal property in the Custodial Area
         to include: loss, theft, damage,
         modification, and classification of
         excess and unreparable (sic) property.

•        Reporting to the Property Accountable
         Officer and preparing documentation for
         all property transactions in his/her
         Custodial Area to include: transfer,
         disposal, adjustment transactions
         (overage or shortage), and declaration
         of excess; and obtaining prior approval
         from the Property Accountable Officer
         for plans to convert, alter, modify, or
         dismantle personal property.

•        Conducting physical inventories of the
         personal property within the Custodial
         Area as required and directed by the
         Property Accountable Officer and/or the
         Program Accountable Officer.
         Reconciling the inventories and
         certifying the results. Initiating the
         paperwork to resolve overages and
         shortages.

•        Establishing and maintaining prescribed
         control records.


    45                       Report No. 2000-P-00015
                                     Audit of Extramural and
                                 Property Management at the
                                    Atlantic Ecology Division




Without a full complement of properly designated
Custodial Officers, all these activities were not carried
out for all Custodial Areas at AED.

Property accounts lacked official or current Custodial
Officer designations. Sixteen of 32 Custodial Officers
had not signed acceptance of their accounts. Four
former employees were still identified as Custodial
Officers up to a year and a half after they left AED
(See Appendix 2). As a result, property valued at
approximately $6,212,611 was not adequately
safeguarded (See Appendix 3). Senior management
had not established and implemented adequate
controls and procedures to ensure that existing
Custodial Officers understood their responsibilities or
designated replacement Custodial Officers on a
timely basis.

We interviewed 10 of the 16 Custodial Officers who
had not signed for their property accounts to
determine why they had not accepted responsibility
for their accounts. Of the ten Custodial Officers
interviewed: five said they hadn’t been asked to sign
for their accounts or they did not know why they had
to sign for their property account; three said they
hadn’t signed because the property account inventory
had not been reconciled; one said she hadn’t
received training so she assumed she was not
responsible for the property; and one Custodial
Officer said he had not gotten around to signing.
These responses indicated that Senior Management
had not instilled a strong and clear sense of
responsibility among Custodial Officers regarding
their duties.

For the Custodial Officer who had not gotten around
to signing for his account, we found another
procedural deviation. Contrary to AED’s practice, this


         46                         Report No. 2000-P-00015
                                    Audit of Extramural and
                                Property Management at the
                                   Atlantic Ecology Division

Custodial Officer, rather than the Property Officer,
maintained his own account file. However, during our
audit, the Custodial Officer could not find his file.
This Custodial Officer was responsible for $1,337,887
of computer equipment according to the July 8, 1999
IFMS, “Custodial Account Report Sorted by Decal
Number”. Without the file, we could not determine if
and when an inventory had been taken. Also, this
Custodial Officer could not carry out his
responsibilities such as conducting inventories,
reporting property transactions, or property status
changes.

The Property Officer recognized two years ago that
AED Custodial Officers needed training. In his
February 5, 1997 memorandum to the Acting ADPO,
he wrote, “The need exists for training in the areas of
property and records management.” He requested
that AED fund travel expense for expert assistance
from EPA Headquarters’ Property Management
Office. However, the AED Acting Director said funds
were not available to pay for such a trip. This
problem was not addressed and continued.

In a June 24, 1999 memorandum to the OIG, the
Property Officer stated, “I believe that the Custodial
Officers are confused about their duties despite the
written instructions I have provided”. He said this
was made clear to him when one Custodial Officer
would not sign for his property account. The Property
Officer further stated, “I believe this plan [seeking
training assistance from Headquarters] must be
revisited and the Custodial Officers be trained in the
responsibilities [of Custodial Officers] as well as the
Senior Management Team. Their career path is up
through the technical side and they do not
understand that they must support not hinder or
discourage proper and legal internal control property
procedure. I believe that their lack of knowledge with
respect to property issues can be found to weave not


         47                        Report No. 2000-P-00015
                                     Audit of Extramural and
                                 Property Management at the
                                    Atlantic Ecology Division

only through in-house property, as well as field
sampling gear but also extramural property.”

The Property Officer then wrote to the ADPO in a
June 28, 1999 memorandum that AED needed a
provision for dealing with Custodial Officers who
either do not sign off on their property after an
inventory or do not make themselves available in a
timely manner to do a proper inventory of material
they are responsible for. He further stated,
“situations of this nature should be corrected
immediately.”

AED also lacked controls to ensure that property
accounts were inventoried, reconciled and transferred
when Custodial Officers left AED employment. Four
former employees, who had departed AED during the
past 18 months, were still listed as active property
Custodial Officers. As a result, AED had no
assurance that these property accounts were
safeguarded. Senior Management did not designate
permanent replacements prior to the Custodial
Officers leaving. This problem was previously
reported by the EMS in her April 22, 1996 Event
Cycle report on property management. The EMS
report stated that a quick run through of the property
records yielded over $200,000 worth of equipment
assigned to 15 people who no longer worked at AED.

In his June 28, 1999 memorandum, the Property
Officer stated, “Currently when someone retires or
when an individual employee is transferred the
responsibility of the property under their control is not
inventoried or signed off on, and assigned to a new
custodian at the time the person leaves.” Further,
“There is only a verbal assignment that until a
permanent person is hired the temporary person ‘will
take care of it’”. The Project Officer did not believe
he had the authority to appoint a new custodian. EPA
Headquarters’ Property Officer confirmed that


         48                         Report No. 2000-P-00015
                                                            Audit of Extramural and
                                                        Property Management at the
                                                           Atlantic Ecology Division

                         authority to designate a Custodial Officer rested with
                         Senior Management. We determined that property in
                         the amount of $771,382, was still assigned to four
                         custodians who left AED as long ago as December
                         1997.


Annual Inventories Not   Annual inventories of accountable, government
Performed                property were not performed as required by EPA
                         policy. Additionally, 14 of the 32 property accounts
                         had no evidence that an inventory had been
                         performed. The Property Officer believed that
                         inventories were to be conducted every two years,
                         not annually. Also, the absence of properly
                         designated Custodial Officers resulted in
                         undocumented inventories. Without annual
                         inventories, $6,212,611 of AED property was not
                         adequately accounted for. Our unannounced
                         inventories of a sample of accounts disclosed that the
                         IFMS inventory system included items which could
                         not be found as well as obsolete equipment. Also,
                         some equipment had not been entered into IFMS.
                         The Property Officer advised us of instances of
                         idle/unneeded and missing/stolen property which was
                         still reported in the IFMS inventory system.

                         EPA’s Personal Property Policy Manual Chapter 2,
                         Paragraph 6.2.6.1, Accountable Property states:

                               The Program Accountable Officer, Regional
                               Administrators, Laboratory Directors, or the
                               Directors, Office of Administration and
                               Resources Management, RTP and Cincinnati
                               shall certify annually as part of the
                               organization’s Internal Control review that all
                               Custodial Officers within the organization have
                               been appointed and received training and that
                               annual accountable property inventories have
                               been conducted and submitted to the Property
                               Accountable Officer.

                                  49                       Report No. 2000-P-00015
                                   Audit of Extramural and
                               Property Management at the
                                  Atlantic Ecology Division



The latest inventory of accountable property
performed by Custodial Officers was dated
February/March 1997. The Property Officer
inventoried capital equipment in March 1999 after
being advised to do so by Headquarters. Capital
equipment was previously inventoried in 1997. The
Property Officer believed biennial rather than annual
inventories were required. After discussions with
Headquarters Property Management personnel, the
AED Property Officer now understands that all
accountable property must be inventoried on an
annual basis. It should also be noted that neither the
ADPO nor the Acting Director knew that all
accountable property was to be inventoried annually.

Along with the Property Officer, we conducted an
unannounced inventory of four accounts to determine
the accuracy of the property account records. We
used the then current July 8, 1999 IFMS’ “Custodial
Account Report Sorted by Decal Number”. Based
upon the results of our review, these reports did not
reflect the actual state of the inventory. Some items
could not be found while other items had not been
entered into the system or were in the wrong account.
In some cases, obsolete equipment was still carried
on the inventory. See the schedule on the next page
for details of our review.




         50                       Report No. 2000-P-00015
                                   Audit of Extramural and
                               Property Management at the
                                  Atlantic Ecology Division




We also identified 16 items that had not been entered
into PPAS or IFMS on a timely basis. AED converted
from the PPAS to IFMS in May 1997. The 16 items
had acquisition dates from 1987 to 1998. However,
these items were not on the 1997 PPAS inventory list.
Four of the sixteen items were input to IFMS in 1998
and twelve items were input in 1999. The Property
Officer said he was unaware that the lab had these
items until an inventory was taken. See the schedule
on the next page for details.


        51                        Report No. 2000-P-00015
                                    Audit of Extramural and
                                Property Management at the
                                   Atlantic Ecology Division




Annual Inventories are important to track the status of
valuable government property. Custodial Officers
should be able to locate the equipment under their
care and note any changes or modifications to
equipment.

In addition to annual inventories, an annual
evaluation of accountable property should be done to
determine if any equipment is idle or unneeded.
Such a review may be done in conjunction with the
annual inventory. According to 41 CFR, Chapter 101,
Section 25.109-1:

(a)   The provisions of this Sec. 101-25.109-1 apply
      to all Federal laboratories regardless of size.



         52                        Report No. 2000-P-00015
                                   Audit of Extramural and
                               Property Management at the
                                  Atlantic Ecology Division



(b)   Inspection tours of Federal laboratories shall
      be conducted on a scheduled basis, annually,
      if feasible, but no less than every 2 years, for
      the purpose of identifying idle and unneeded
      laboratory and research equipment.

      Equipment identified by the inspection team as
      idle or unneeded shall be reassigned as
      needed within the laboratory, placed in an
      equipment pool, or declared excess and made
      available to other agencies in accordance with
      part 101-43.

The Property Officer recognized that AED needed to
develop procedures to safeguard expensive
equipment as well as to identify idle/unneeded
equipment. He brought the following examples to our
attention and the ADPO.

1.    A $100,000 current meter was found under a
      pile of refuse in the old wet lab and appeared
      to have been abandoned.

2.    A $244,776 Mass Spectrograph purchased in
      1993 which had never been used to anyone’s
      knowledge.

3.    Two current meters, each worth $8,000, were
      nowhere to be found. One was believed to
      have been lost in Texas.

4.    A $6,789 Data Logger was missing.

5.    A $1,200 engine which had been stolen in
      1993 was still listed on the property records.

The Acting Director said that AED was forced to buy
a spectrograph from the GSA catalog rather than the
exact item they wanted from another source. AED

        53                        Report No. 2000-P-00015
                                                               Audit of Extramural and
                                                           Property Management at the
                                                              Atlantic Ecology Division


                          tried to customize the spectrograph to the
                          laboratory’s needs. In 1996, the AED staff
                          determined that customization would not work. The
                          Acting Director said it took another three years to find
                          a suitable location to ship the spectrograph. He
                          further stated that AED deals with scientific
                          equipment which is “state of the art” and “cutting
                          edge”. It is difficult to get the exact type of equipment
                          desired to do the job. He said that it is not unusual
                          for equipment to remain idle for three years in a
                          research laboratory. A laboratory cannot always
                          anticipate a project’s equipment needs.

                          In our opinion, six years was an unreasonable
                          amount of time to keep the spectrograph idle. Even
                          research laboratories must plan for their needs.

                          The Property Officer said AED will now perform a
                          “walk-through” shortly after the annual inventory to
                          determine if excess or idle equipment exists. We
                          believe this procedure will improve AED staff’s
                          knowledge of its property and needs.



Loaned Equipment          Loaned Government property of $250,373 had not
Not Effectively Managed   been returned in accordance with Revocable License
                          Agreements (RLAs) and EPA requirements. As a
                          result, the status of $43,690 of equipment was
                          unknown. The status of the remaining loaned
                          equipment, in the amount of $206,683, was not
                          documented as being returned until 1999, up to three
                          and one-half years after the property was returned.
                          Limited Senior Management oversight and a lack of
                          internal controls over loaned property were the direct
                          causes of poor property management.

                          EPA Property Management Policy permits the loan of
                          Agency owned personal property, except motor


                                   54                         Report No. 2000-P-00015
                                    Audit of Extramural and
                                Property Management at the
                                   Atlantic Ecology Division


vehicles, on a temporary basis, with a maximum of
five years. To effect the loan, the loan document
must be signed and dated by the party to which the
loan is made. Agency directives require loans of
personal property exceeding 45 days be made by
means of RLAs. RLAs should include: the purpose
of the loan, the loan period, and a certification that
the property involved is under the requesting officials
control; and is not excess.

We reviewed eight (100 percent) of the RLAs used to
loan Government property. At the time of our review,
documentation did not exist to show that the
equipment had been returned. For three of these
eight RLAs, the Property Officer advised us that forty
pieces of equipment worth $43,690 had not been
returned to AED as of August 18, 1999 and the status
of this equipment was unknown. He said there was
no record of the equipment ever being returned. The
following schedule shows the three RLAs involved.




In response to our review, the Project Officers
responsible for the remaining five RLAs certified they
had received the loaned equipment, in some cases,
up to three and one-half years after the equipment
was returned. In two cases, AED officials certified
that equipment had been returned but not within the
RLA loan prescribed time frame. The following
schedule shows this information in detail.



         55                        Report No. 2000-P-00015
                                   Audit of Extramural and
                               Property Management at the
                                  Atlantic Ecology Division




Additionally, loan authorization was not obtained in
each case. In three cases, EPA had not signed the
RLAs and in another three cases, neither EPA nor the
licensees signed the RLAs.

EPA’s Personal Property Policy Manual Chapter 2,
paragraph 6.1.3 states in part:

      A memorandum requesting approval to loan
      the property must be submitted to the Property
      Management Officer by the requesting official.
      The request must include an endorsement of
      the EPA requesting official’s Division Director
      (or equivalent) and shall address the
      requirements for short or long-term loans listed
      below.

      To effect the loan, the loan document must be
      signed and dated by the party to whom the
      loan is made (licensee). The document shall
      be returned to the issuing Property
      Management Officer to transfer accountability
      from the Custodial Area initiating the actions to
      a newly established account assigned to this
      transaction. A copy of the loan agreement
      shall be forwarded to the Custodial Officer who
      initiated the transaction.

        56                        Report No. 2000-P-00015
                                                 Audit of Extramural and
                                             Property Management at the
                                                Atlantic Ecology Division


             The Property Officer was aware of the need to
             improve the management of Government loaned
             equipment and cited the RLA with the Narragansett
             Bay Project as an example of his concerns. The RLA
             was signed by the licensee, Narragansett Bay Project
             on March 7, 1989 for a period of 18 months
             authorizing receipt of thirteen pieces of AED
             computer equipment valued at $21,839. The
             computer equipment was not transferred until 1992.
             Since this project was under the control of EPA
             Region 1, the Property Officer made several attempts
             to transfer property accountability to Region 1. As of
             August 1999, this transfer did not occur. The EMS
             had recommended that the property be transferred to
             Region 1 in her April 22, 1996 Event Cycle Report.
             Again, we see problems which have been identified
             but not resolved over a long period of time. The
             ADPO needs to establish procedures for resolving
             problems identified either through internal control
             review or his staff.



CONCLUSION   The Property Officer was aware that property
             management needed to be improved. However, he
             needed support from Senior Management to
             implement many of the changes needed. Senior
             Management needs to assure that the Property
             Officer and Custodial Officers are adequately trained
             and knowledgeable to carry out their responsibilities.
             Senior Management also needs to show that it
             supports the Property Officer by designating
             Custodial Officers on a timely basis and assuring that
             annual inventories are conducted. Senior
             Management was responsive to our
             recommendations and already started implementing
             various corrective actions. A Property Management
             expert from Headquarters was scheduled for two trips
             to AED to assist the Property Officer in establishing a
             property management system.

                      57                        Report No. 2000-P-00015
                                                     Audit of Extramural and
                                                 Property Management at the
                                                    Atlantic Ecology Division




RECOMMENDATIONS   We recommend that the Acting AED Director and
                  ADPO:

                  1.    Require current Custodial Officers to
                        immediately accept responsibility of their
                        property accounts by providing written
                        acceptance.

                  2.    Establish the practice of designating new
                        Custodial Officers prior to the departure of the
                        current Custodial Officers. Before the current
                        Custodial Officer leaves, the current and new
                        Custodial Officers along with the Property
                        Officer should inventory the property account.
                        All discrepancies should be resolved and the
                        new Custodial Officer should sign for the
                        property account at the completion of the
                        inventory.

                  3.    Require the Property Officer and Custodial
                        Officers to receive adequate training in
                        property management and up-dates as
                        needed.

                  4.    Certify annually as part of the organization’s
                        Internal Control review that all Custodial
                        Officers within the organization have been
                        appointed and received training and that
                        annual accountable property inventories have
                        been conducted and submitted to the Property
                        Accountable Officer.

                  5.    Instruct the Property Officer to evaluate the
                        use and need of property during annual
                        inventories.

                  6.    Require the Property Officer to routinely
                        correct IFMS based upon results of annual
                        inventory.

                          58                        Report No. 2000-P-00015
                                                  Audit of Extramural and
                                              Property Management at the
                                                 Atlantic Ecology Division


               7.    Establish a system of internal controls to
                     document and account for all current and
                     future loaned Government property.

               8.    Perform a complete inventory of all returned
                     equipment (loaned through an RLA)
                     documenting that all property is accurately
                     accounted for and timely entered into IFMS.



ORD RESPONSE   The AA wrote:

                     Since the time of this audit, AED has made
                     significant progress in strengthening property
                     management. Specifically, from August 1-6,
                     1999, an EPA property expert conducted
                     property management training at AED. During
                     that period, property accounts were verified
                     and property was reconciled. In conjunction
                     with that visit, AED property accounts were
                     adjusted to reflect the new $5,000 reportable
                     property threshold. Currently, we are planning
                     the return of the property expert to conduct
                     follow-on training. The total amount of
                     accountable property reflected in the OIG draft
                     report as $6,212,611 is now at $4,281,243.
                     This reduction is based on deleting items with
                     a value of less than $5,000 and on the new
                     Property Officer’s efforts to exercise the
                     Stevenson Wilder Act, excessing obsolete
                     property.

                     The AED has also strengthened its security
                     and accountability measures. For example, on
                     December 28, 1999, beneficial occupancy of
                     the new boat house was granted. Since that




                       59                        Report No. 2000-P-00015
                                                     Audit of Extramural and
                                                 Property Management at the
                                                    Atlantic Ecology Division


                       area is no longer a construction site, all AED
                       vessels have been relocated to an area where
                       security cameras are in use. Once fire safety
                       issues are resolved, the boat house will be the
                       normal storage site for all vessels. On
                       January 4, 2000, all locks were re-keyed on
                       boats, and field operations storage areas, and
                       old keys and locks were turned over to the
                       AED Security Representative. Also,
                       specialized locks for trailer tongue latches are
                       on order. These locks will prevent
                       unauthorized towing of all AED trailers, or
                       removal of trailers from a vehicle’s, fixed
                       towing hitch, on or off site. Additionally, AED
                       has made procedural changes which ensure
                       that the Property Officer has knowledge of
                       property valued at $5,000 or more, when it is
                       ordered.

                 ORD requested that we add to the text of the finding
                 that since 1997, the Property Officer had not raised
                 his concerns to Senior Management until the OIG
                 audit in 1999.

                 Additionally, ORD requested that we revise our
                 statement that accountable property was not
                 adequately “safeguarded” to “inventoried.”

                 ORD also provided a Correction Action Plan (See
                 Appendix 4) responding to each of the finding’s
                 recommendations.


OIG EVALUATION   We concur with AED’s actions to date and with its
                 Corrective Actions for this Chapter. However, we do
                 need clarification on Recommendation 2. ORD’s
                 response did not specifically indicate if an inventory
                 and reconciliation would be done when a Custodial
                 Officer departs.


                          60                        Report No. 2000-P-00015
                                    Audit of Extramural and
                                Property Management at the
                                   Atlantic Ecology Division



We did not change the text of the finding to read that
the Property Officer had not raised his concerns to
Senior Management since his 1997 memorandum.

We believe the Property Officer acted appropriately
by advising management of his concerns.
Management did not act upon those concerns. While
work is a team effort by both management and staff,
management did not accept its share of responsibility
in this matter.

We did not change our use of the word “safeguard” to
“inventory” because maintaining an inventory was not
our only concern. As already reported in the finding,
custodial officer designations were out-dated, loaned
equipment was not monitored, and equipment
need/use was not determined. To safeguard is to
take precautionary measures to protect. In our
opinion, AED had not taken adequate precautionary
measures to protect all its property. We believe
ORD’s response describing further efforts taken to
strengthen security and accountability support our
statement.

Also, EPA’s Personal Property Policy Manual
explains that management of property must ensure
that items are “safeguarded.”




         61                        Report No. 2000-P-00015
                                           Audit of Extramural and
                                       Property Management at the
                                          Atlantic Ecology Division




[This page intentionally left blank]




                62                        Report No. 2000-P-00015
                                                              Audit of Extramural and
                                                          Property Management at the
                                                             Atlantic Ecology Division




                       CHAPTER 5
               IMPROVEMENTS MADE IN OVERSIGHT OF
                COOPERATIVE AGREEMENTS BUT NOT
                    INTERAGENCY AGREEMENTS


                         AED had made improvements in its oversight of
                         cooperative agreements but not interagency
                         agreements (IAGs). Funding for cooperative
                         agreements reviewed was for appropriate AED
                         activities (pre-doctoral and post-doctoral research).
                         The Project Officer and Local Site Representative
                         diligently monitored grant activities and maintained
                         adequate documentation to assure that the terms of
                         the agreements were met. As a result, these
                         cooperative agreements helped fulfill AED’s research
                         mission to support science. Specifically, these
                         agreements supported training and development of
                         young environmental scientists who conduct
                         environmental and ecological research.

                         The Project Officer for the IAG, however, did not
                         assure that status reports or support for costs were
                         received and reviewed. The IAG Project Officer
                         admitted that he was remiss in carrying out his
                         responsibilities. As a result, we could not confirm if
                         progress was made in AED’s oversight of IAGs.



Prior Audit Findings     In our June 16, 1993 report, Management of
                         Extramural Resources at the Environmental Research
                         Laboratory, Narragansett, Rhode Island, we reported
                         that cooperative agreements were improperly used to
                         fund a day care center; IAG’s were inappropriately
                         used to fund foreign national travel; and EPA


                                  63                         Report No. 2000-P-00015
                                                            Audit of Extramural and
                                                        Property Management at the
                                                           Atlantic Ecology Division

                         education policy was circumvented so that EPA
                         employees could receive advanced degrees. Except
                         for oversight of IAGs, improvements have been
                         made.


Cooperative Agreements   AED used the appropriate vehicle of a cooperative
                         agreement to fund projects related to AED’s mission.
                         These sampled cooperative agreements were for pre-
                         doctoral and post-doctoral candidates. From these
                         candidates, AED gained information and data from
                         peripheral research topics to add to in-house
                         research. Additionally, AED Project Officers did a
                         good job monitoring their projects. We sampled two
                         cooperative agreements from a universe of four
                         active cooperative agreements.

                         The Project Officer for the National Research Council
                         (NRC) cooperative agreement is located in
                         Washington DC. The Local Site Representative
                         located in Narragansett interacted with the Project
                         Officer but had limited responsibility such as
                         preparing preliminary cost estimates, opportunity
                         announcements, and decision memoranda. In
                         addition, the Local Site Representative maintained
                         unofficial fund tracking records. All decisions
                         regarding candidates, their salaries, benefits, and
                         travel were made by NRC.

                         The NRC cooperative agreement (CR826388) was for
                         the period of February 1, 1998 to January 31, 2001.
                         The total dollar value of the agreement was
                         $7,728,000, however, only $165,000 was allocated to
                         AED. There were three active associates at the
                         Laboratory under the NRC cooperative agreement,
                         however, two other candidates were being
                         considered as well.

                         The Project Officer for the University of Rhode Island
                         (URI) Cooperative Agreement maintained information

                                  64                       Report No. 2000-P-00015
                                                     Audit of Extramural and
                                                 Property Management at the
                                                    Atlantic Ecology Division

                  required under the agreement. Progress reviews and
                  mentor evaluations were completed at 6 months and
                  12 months respectively. The Project Officer also
                  informally followed progress through the monthly
                  Science Council meeting. The Project Officer did not
                  receive invoices for expenditures because she was
                  not the Certifying Officer. URI submitted invoices to
                  EPA’s Las Vegas office for payment. The Project
                  Officer explained that the process was similar to a
                  revolving fund. The Project Officer was not involved
                  in that aspect of the cooperative agreement.
                  However, the URI point of contact did provide the
                  Project Officer with financial information which
                  showed each student’s expenditures.

                  The URI cooperative agreement (CT825802) was for
                  the period August 1, 1997 to July 31, 2000. The total
                  project period costs were $367,286. The Senior
                  Resource Official approved the award package with
                  the understanding that the total funding under the
                  cooperative agreement may exceed $1,000,000 but
                  will not exceed $5,000,000. The cooperative
                  agreement was established to provide expanded
                  training opportunities and collaborative support for
                  fellowships at the undergraduate, graduate, and post-
                  doctoral levels to increase the effectiveness and
                  number of future independent scientists who will
                  conduct environmental and ecological research.

                  As a result of the monitoring and involvement of the
                  Project Officer and Local Site Representative, the
                  cooperative agreements appeared to be achieving
                  their intended purpose.



Day Care Center   In response to our prior audit, AED closed the day
                  care center on March 24, 1992. Since that time, the
                  day care center has remained closed. According to



                           65                       Report No. 2000-P-00015
                                              Audit of Extramural and
                                          Property Management at the
                                             Atlantic Ecology Division




           the Extramural Management Specialist (EMS), there
           are not enough Federal employees with children to
           justify opening a day care center.


Training   AED generally complied with training regulations
           except in one case. This occurred because AED’s
           prior Director allowed, regardless of training policy,
           the employee to take courses as part of the Individual
           Development Plan (IDP). As a result, the employee
           took three university courses during
           duty hours and the government paid for one of those
           classes. Another class was paid for by the
           government, though the class was taken during non-
           duty hours.

           According to Title 5 - Administrative Personnel: An
           Agency may not authorize training for an employee to
           obtain an academic degree. In the IDP, the
           development objective was “continue to take courses
           at the University of Rhode Island toward a Bachelor
           of Science in Political Science (Public
           Administration).”

           The new ADPO took corrective action immediately
           after discovering the problem in November 1998. He
           communicated with the Labor Relations Specialist
           and the employee. The Labor Relations Specialist
           wrote, “You cannot grant excused absence unless a
           determination has been made that the training is
           primarily for the benefit of the government.” As a
           result, the ADPO required the employee to take either
           leave without pay or annual leave for courses taken
           during duty hours.

           According to the EMS, employees can no longer get
           reimbursed for classes paid in advance. Each course
           must be approved one at a time. Employees will be

                    66                       Report No. 2000-P-00015
                                                           Audit of Extramural and
                                                       Property Management at the
                                                          Atlantic Ecology Division

                        reimbursed only for those courses which will enhance
                        job performance.

Interagency Agreement   The Project Officer for the interagency agreement
                        sampled did not aggressively pursue cost
                        breakdowns or status reports. As a result, the Project
                        Officer may have approved invoices for costs not
                        authorized in the agreement. Not adhering to the
                        requirements for quarterly reports and breakdown of
                        costs could result in EPA paying for work which was
                        either not performed or not allowable under the
                        agreement.

                        One of three active interagency agreements was
                        sampled. The National Oceanic and Atmospheric
                        Administration (NOAA)-EPA IAG (DWI3937902) was
                        for the period July 1, 1997 to June 30, 2001. The
                        amount of the award was $325,000. The objectives
                        of the IAG were to determine the current condition of
                        the harbor using both standard measures of
                        ecological condition and new, innovative, and
                        potentially sensitive measures of biological response.
                        The IAG also provided an opportunity for EPA to
                        maintain a collaborative effort with NOAA. According
                        to the IAG’s Statement of Work, the objective was to
                        address major components of a competitive Regional
                        Environmental Monitoring Assessment Program
                        proposal and research plan submitted by Region 2 for
                        monitoring the New York/New Jersey harbor.

                        The terms and conditions of the NOAA IAG specify
                        that:

                        1.    When requesting payments a breakdown of
                              the cost associated when the billings request
                              must be provided to the Project Officer. This
                              information should allow the Project Officer to
                              determine that costs billed to EPA are
                              reasonable and necessary. If the information
                              is not provided, the EPA Project Officer will

                                 67                       Report No. 2000-P-00015
                                   Audit of Extramural and
                               Property Management at the
                                  Atlantic Ecology Division

      notify FMD [Financial Management Division] to
      suspend or charge back the payment of the
      invoice; and

2.    NOAA will provide to the EPA Project Officer
      quarterly progress reports containing project
      name and IAG; summary of work performed for
      that quarter; estimate of the percentage of
      project completed; accounting of funds
      expended; summaries of all problems;
      projected work for the next reporting period.

The Acting Assistant Administrator for Research and
Development sent a November 16, 1993 letter to all
ORD employees regarding Management of
Extramural Resources. Particularly, it states:

      It has been and is the responsibility of the
      Federal employees who manage these funds
      to assure that they are expended in
      accordance with the relevant Federal laws and
      regulations and Agency policies and
      procedures. Consequently when EPA
      scientists become involved with expending
      extramural funds they must assume the related
      management responsibility. And just as good
      science requires well documented data, good
      management of Federal funds also requires
      documentation and adherence to establish
      management procedures and controls.

Two invoices were received by the EPA Project
Officer, however, there was no supporting
documentation attached to the invoices. The Project
Officer certified the invoices for payment because he
determined that sufficient progress had been made
by the other agency to support the progress payment
as authorized by the IAG.




        68                        Report No. 2000-P-00015
                                                 Audit of Extramural and
                                             Property Management at the
                                                Atlantic Ecology Division

             The Cincinnati Finance Office did not have the
             supporting documentation for the invoices and
             assumed the Project Officer had that information.
             Additionally, the National Oceanic Atmospheric
             Administration (NOAA) Project Officer did not have
             the backup documentation available to support the
             invoices. The NOAA Project Officer explained that
             the NOAA budget person worked from home a lot and
             maintained the backup documentation. The NOAA
             Project Officer did provide a summary e-mail of how
             EPA funds were disbursed by FY 1998 end. However,
             these costs were not broken down to support the
             invoices. Since backup documentation was not
             obtained for the two invoices totaling $78,204.29
             ($39,869.96 & $38,334.33), there was no guarantee
             that EPA did not pay for foreign national travel or
             other expenses not covered under the IAG.

             Additionally, the Project Officer admitted that he was
             not receiving quarterly progress reports and that he
             had been negligent in not following up with NOAA.
             He said that quarterly reports should not have been
             stipulated in the agreement because there were long
             periods of inactivity during the project. The Project
             Officer added that he did a lot of monitoring through
             telephone conversations.



CONCLUSION   The Project Officers for cooperative agreements
             improved oversight by assuring that agreement
             conditions were met. Weaknesses in IAG oversight
             continued because the Project Officer did not use the
             agreement as a guideline for monitoring performance
             and costs. The 1993 OIG report found that the IAG
             was used as a mechanism to circumvent EPA
             regulations to fund foreign nationals and international
             travel by non-EPA employees. Since then, ORD
             developed policies and procedures for international
             travel and guest workers. However, without the

                      69                        Report No. 2000-P-00015
                                                     Audit of Extramural and
                                                 Property Management at the
                                                    Atlantic Ecology Division

                  supporting documentation required by the agreement,
                  we could not determine the reasonableness of the
                  IAG costs.

RECOMMENDATIONS   We recommend that the Acting AED Director instruct
                  the IAG Project Officer to:

                  1.    Obtain and review supporting documentation
                        as required by the IAG for all costs charged to
                        date and in the future.

                  2.    Attach the cost breakdown of the expenses to
                        the invoice.

                  3.    Review cost breakdowns for allowability and
                        applicability to the IAG.

                  4.    Maintain the cost breakdown in the records.

                  5.    Obtain quarterly status reports as specified in
                        the IAG. If there has been no activity a note
                        should be written to the file.



ORD RESPONSE      ORD disagreed with the general conclusion that no
                  improvements in IAG oversight were made. ORD
                  believed it was unfair to make a broad statement
                  based on a sample of one IAG.

                  ORD also provided a Correction Action Plan (See
                  Appendix 4) responding to each of the finding’s
                  recommendations.


OIG EVALUATION    Although we sampled one IAG, we feel our
                  judgmental sample was fair. There were three active
                  IAGs totaling $391,389 at AED during the time of our
                  review. The IAG selected was for $325,000, or 83%
                  of IAG active funds.

                          70                        Report No. 2000-P-00015
                                   Audit of Extramural and
                               Property Management at the
                                  Atlantic Ecology Division

Lack of documentation for IAG costs was a repeat
finding from our 1993 report. Specifically, the 1993
report stated:


      Narragansett officials were unable to provide
      us with documentation to support the
      expenditure of funds, and stated that NOAA
      was responsible. NOAA could not provide
      documentation to support the expenditure of
      the funds for this IAG.

Although this is not the same IAG as reported in the
1993 audit report, it is the same Federal Agency with
whom EPA entered an agreement. Considering the
above facts, we feel our conclusion was appropriate.

We concur with ORD’s Corrective Actions to this
Chapter.




         71                       Report No. 2000-P-00015
                                           Audit of Extramural and
                                       Property Management at the
                                          Atlantic Ecology Division




[This page intentionally left blank]




                72                        Report No. 2000-P-00015
                                                                                   Audit of Extramural and
                                                                               Property Management at the
                                                                                  Atlantic Ecology Division




                                     APPENDIX 1
                           SCHEDULE OF SAFETY FINDINGS




*                                                                                                      Prio
rity B is assigned to deficiencies that could lead to regulatory enforcement action or to unacceptable
safety, health and environmental risk.


                                                    73                             Report No. 2000-P-00015
                                                                                        Audit of Extramural and
                                                                                    Property Management at the
                                                                                       Atlantic Ecology Division




* Priority C is assigned to deficiencies that would have a minimal impact on human safety and health and the
environment, but could result in limited regulatory enforcement action.


                                                       74                               Report No. 2000-P-00015
                                                                             Audit of Extramural and
                                                                         Property Management at the
                                                                            Atlantic Ecology Division




                                  APPENDIX 2
                     SCHEDULE OF CUSTODIAL ACCOUNTS




The following chart identifies the four accounts of the retired/resigned Custodial Officers.




                                                75                          Report No. 2000-P-00015
                                           Audit of Extramural and
                                       Property Management at the
                                          Atlantic Ecology Division




[This page left intentionally blank]




                76                        Report No. 2000-P-00015
                                 Audit of Extramural and
                             Property Management at the
                                Atlantic Ecology Division




    APPENDIX 3
SCHEDULE OF 1999 INVENTORY




            77                  Report No. 2000-P-00015
                                           Audit of Extramural and
                                       Property Management at the
                                          Atlantic Ecology Division




[This page left intentionally blank]




                78                        Report No. 2000-P-00015
                                  Audit of Extramural and
                              Property Management at the
                                 Atlantic Ecology Division




        APPENDIX 4
ORD’S RESPONSE TO OIG DRAFT REPORT




                79               Report No. 2000-P-00015
                                                                                        Audit of Extramural and
                                                                                    Property Management at the
                                                                                       Atlantic Ecology Division


the new $5,000 reportable property threshold. Currently, we are planning the return of the property expert
to conduct follow-on training. The total amount of accountable property
reflected in the OIG draft report as $6,212,611 is now at $4,281,243. This reduction is based on deleting
items with a value of less than $5,000 and on the new Property Officer's efforts to exercise the Stevenson
Wilder Act, excessing obsolete property.

          The AED has also strengthened its security and accountability measures. For example,
on December 28, 1999, beneficial occupancy of the new boat house was granted. Since that area is no
longer a construction site, all AED vessels have been relocated to an area where security cameras are in
use. Once fire safety issues are resolved, the boat house will be the normal storage site for all vessels. On
January 4, 2000, all locks were re-keyed on boats, and field operations storage areas, and old keys and
locks were turned over to the AED Security Representative. Also, specialized locks for trailer tongue
latches are on order. These locks will prevent unauthorized towing of all AED trailers, or removal of
trailers from a vehicle's fixed towing hitch, on or off site. Additionally, AED has made procedural changes
which ensure that the Property Officer has knowledge of property valued at $5,000 or more, when it is
ordered.

        The OIG report has also brought to our attention the need to improve timeliness in remedying
known contract management vulnerabilities. The contract management
vulnerabilities described in this report were initially raised by the AED Extramural Management Specialist
(EMS), in June 1996. Also, AED contractual problems were carefully outlined in a 1997 NHEERL
Management Review. We are currently implementing corrective action in this area.

         However, ORD believes it is important that the final audit report reflect the staffing difficulties that
AED was experiencing throughout its contractual and property problems. The report should show that
AED was without a permanent Associate Director for Program Operations from February 1996 to April
1998. The vacancy of this critical administrative supervisory position exacerbated the timeliness and
effectiveness of AED's ability to remedy problems in both extramural and property management.

         Finally, we believe that AED has made considerable improvement in overall extramural
management. Largely, the weaknesses discussed in the 1993 OIG audit have not reoccurred. We are
concerned that the current draft report makes general conclusions about AED's contract management
progress based on AED's problems with a single contract (O&M), which had already been identified by
both the EMS and an NHEERL Management Review. Moreover, at the time of the OIG audit, significant
corrective actions had been made or were in progress. For example, a new Project Officer was hired and a
new contract was in the solicitation process. Further, as we discussed in our teleconference, we strongly
believe that the Contract Management Division shares our responsibility for the effective contract
management.

       We remain concerned with the OIG's conclusion that improvement in the oversight of IAGs has not
been made. This conclusion was based on the review of only one IAG. This limited exploration and
sweeping conclusion does not represent the progress that AED has made in this area.


                                                       80                              Report No. 2000-P-00015
                                                                                     Audit of Extramural and
                                                                                 Property Management at the
                                                                                    Atlantic Ecology Division


         Attached is ORD's consolidated, page-specific comments which we offer for incorporation in the
final report. We have also included our corrective action plan. Should your staff have questions or require
further information, please have them contact Cheryl Varkalis at (202) 564-6688.

Attachments (2)

cc:     Paul McKechnie
        Linda Fuller
        Cathy Jenson
        Henry Longest
        Debbie Dietrich
        Peter Durant
        Arnold Bloom
        Cheryl Varkalis
        Ann Akland
        Gilman Veith
        Patricia Jackson
        Karen Dean
        Norman Rubinstein
        Glenn Moore
        Carol Ann Sakiewicz




                                                                                            Attachment 1



                                                     81                             Report No. 2000-P-00015
                                                                                         Audit of Extramural and
                                                                                     Property Management at the
                                                                                        Atlantic Ecology Division



                                       Consolidated ORD Comments
                                                    on
                                     OIG Draft Audit Report #1999-211
                                                 NHEERL
                                         Atlantic Ecology Division

1. Title page (back)-Draft Report states:

"Office of Air and Radiation"

RESPONSE: We request the following change to this portion of the draft report:

"Office of Research and Development"

2. On pages ii, and 8, the draft report states:

“...... however, this position was in a state of transition for a period of time."

RESPONSE: We request the following change to this portion of the draft report:

“...... however, AED was without a permanent ADPO from February 1996 until April 1998.

2-a. On page 9, please add the following text to the final report:

"However, AED was without a permanent ADPO from February 1996 until April 1998. This
staffing limitation is critical to understanding the delays in dealing with all of the issues raised in this
report. On February 18, 1996 the Associate Director for Program Operations (ADPO) transferred to the
AED detachment in Annapolis, MD (now located at Fort Meade, MD). An Acting ADPO was put into
place; however, he had limited management experience and was required to maintain the workload for his
position of record along with serving as the Acting ADPO. AED began the recruitment process to fill the
ADPO position on a permanent basis on April 28, 1997. The Merit Promotion closed on July 28, 1997 and
the OPM Vacancy closed on August 15, 1997. Because this position is critical to improving management
and operations at AED, the interview process was extensive and time consuming. The position was not
filled until April 19,1998."

Discussion: This clarifies the staffing situation by providing specific information on what is meant by
"transition."




                                                        82                              Report No. 2000-P-00015
                                                                                     Audit of Extramural and
                                                                                 Property Management at the
                                                                                    Atlantic Ecology Division


3. On pages iii, 8, 16, and perhaps other sections, the draft report states:

"In the area of contract management, progress was not made since the June 16, 1993 OIG Report."

RESPONSE: We request the following change to this portion of the draft report:

"In the area of contract management, there continued to be problems with one of the contracts that was
audited." Or change to "there was limited progress."

Discussion: This conflicts with other statements in the report that there was "limited improvement" (e.g.
title of next section, and chapter).

4. On pages iii, 11, and throughout the body of the draft report, the statement is made that Project Officers
on the O&M contract did not have an adequate "background in contract management."

RESPONSE: We request the following change to this portion of the draft report to replace the term
"contract management" with "facilities management" and/or "good contract management skills."

Discussion: All individuals tasked as Project Officer were fully trained and therefore had the required
background. The O&M PO did not have adequate background in facilities management. Therefore, it was
difficult for him to manage the facilities work which was under contract. An alternative re-wording is that
the PO did not have "good contract management skills."

5. On pages iii, and 36, the statement is made that AED Senior Management "ignored" property concerns.

RESPONSE: Request that in regard to the property management issue, all occurrences of the word
"ignored" be changed to "did not take appropriate actions to evaluate the seriousness of these issues."

Discussion: As is explained within the OIG Draft Report, the AED Acting Director was led to believe the
property management issues were "minor."

6. On page 2, the draft report states "Under the supervision of the Deputy National Director for Ecology..."

RESPONSE: This should be”....... the NHEERL Associate Director for Ecology."




                                                       83                            Report No. 2000-P-00015
                                                                                    Audit of Extramural and
                                                                                Property Management at the
                                                                                   Atlantic Ecology Division

7. On page 11, the draft report states "l) the former ADPO was not fully qualified.

" RESPONSE: Request to change word "former" to "Acting."

Discussion: "Former" refers to the previous permanent ADPO, which is not the case here.

8. On page 11, the draft report provides the actual performance ratings of the PO. We believe
this is subject to Privacy Act concerns and should be removed.

9. On pages 12 and 20, the draft report leaves the impression that AED did not seek the advice or support
of the Contracting Officer (e.g., "AED kept to themselves.")

RESPONSE: We request the following text be included into the text of the draft report:

The O&M Contract was awarded by CMD-Cincinnati and was subsequently moved to CMD- RTP in
March 1997. The individual that the OIG spoke with was the Contracts Specialist at the time of the audit.
Over the course of this contract, AED's EMS contacted at least eight different Contracting Officers and
Specialists about contract management issues related to this specific contract. In fact, the EMS sent a copy
of her June 1996 internal review of this contract to CMD- Cincinnati. In addition, some of these issues
were raised again with the CMD-RTP Contracts Specialists who visited AED in 1997. However, AED was
not successful in obtaining assistance from CMD. The inability to obtain assistance from CMD further
hindered AED in their management of this contract.

Discussion: We feel strongly that this leaves the reader with a false impression, and that there were
extenuating circumstances surrounding the O&M contract, which made it exceedingly difficult to improve
management.

10. On page 16, the draft report states:

"We are concerned that NHEERL's comments may impair one of AED's effective means of overseeing
extramural management .... We would not be writing this report if the 1996 EMS recommendations had
been resolved."

RESPONSE: The NHEERL Management Review report did not question the EMS's reviews of extramural
management. That is one of the important duties of the EMS. What was of concern in the review was the
effectiveness of the extensive documentation that the EMS put in the PO's files as a result of the review.
The NHEERL Management Review recommended that a more concise and effective means of
communication (e.g., advising, counseling) be utilized by the EMS to help the AED PO's in solving their
extramural management problems.

11. On page 16, under the Conclusion: As noted in our cover memo, we would like to see some reference to
the fact that the key administrative operations position-that of ADPO, was without a



                                                    84                                Report No. 2000-P-00015
                                                                                     Audit of Extramural and
                                                                                 Property Management at the
                                                                                    Atlantic Ecology Division


permanent, well-qualified person, from February 1996 to April 1998. The absence of a permanent ADPO
is critical to understanding why most of these findings were not dealt with in a timely and effective manner.

12. On pages 19 and 20, the draft report refers to a poorly written SOW, which was vague and ambiguous.

RESPONSE: The complexity and ambiguities of the SOW of this contract were also noted in the 1997
NHEERL Management Review. It was the opinion of the two former Contracting Officers on that team
that the contract was so complex and ambiguous that it would be difficult for anyone to manage. This is
why we strongly feel that it is of the utmost importance for the Contracting Officer to work with the Project
Officer and EMS to ensure the award of a clearly written, sound contract. We believe that contract
management is a team effort and that CMD has shared responsibility in ensuring that EPA can hold
contractors responsible for the work that they are getting paid to do.

13. On page 22, the draft report states:

"The Project Officer stated the Contractor, not AED, filled-out on the work order form, the start and
completion dates, estimated and actual hours to complete the work, as well as estimated and actual material
costs. The Contractor physically possessed all work order documents."

RESPONSE: We request the following change to this portion of the draft report:

"The Project Officer stated that the Contractor, not AED, entered data from Work Orders into the status
program including the start and completion dates. The Contractor also filled-out the portion of the Work
Order form dealing with estimated and actual hours to complete the work as well as estimated and actual
material costs."

Discussion: AED believes that there was a misunderstanding on this issue. An AED employee always
originates work order forms. While the Project Officer did not complete the estimates or dates on the forms,
the Project Officer did have a log of all Work Orders submitted to the Contractor which indicated the date
each was forwarded to the Contractor for action. The confusion may be in that the Contractor was the only
one who entered information into the status log.

14. On page 25, the draft report states:

"The AED Acting Director also stated that the principal purpose of the laboratory was science
and although he realized there was no excuse for poor contract management. However, he stated he didn't
believe the nature of the problems with the O&M contract management affected laboratory operations and
he was assured by his managers that corrective actions from previous audits were in place."


RESPONSE: We request the following change to this portion of the draft report:



                                                     85                             Report No. 2000-P-00015
                                                                                     Audit of Extramural and
                                                                                 Property Management at the
                                                                                    Atlantic Ecology Division

"The AED Acting Director also stated that the principal purpose of the laboratory was science and,
although he realized there was no excuse for poor contract management, he didn't believe the nature of the
problems with the O&M contract affected laboratory operations. He also stated that he was assured by his
managers that corrective actions from previous audits were in place."

Discussion: Correct sentence fragment in first sentence.

15. On page 26, the draft report states:

"On September 14, 1999, the Contracting Officer sent a letter ......

RESPONSE: We request the following change to the sentence:

"In response to. a memo initiated by the AED PO, on September, 14, 1999, the Contracting
Officer sent a letter ......

Discussion: This documents the fact that the PO initiated the letter written by the CO.

16. On page 36 and throughout this chapter, the draft report states:

"As a result ..... not adequately safeguarded."

RESPONSE: We request the following change to this portion of the draft report:

Change word "safeguarded" to "inventoried."

Discussion: There are other important ways to "safeguard" property. Inventories are only one.

17. On page 38, the draft report states:

"Without properly designated Custodial Officers, all these activities were not carried out at
AED."

RESPONSE: We request the following change to this portion of the draft report:

"Without a full complement of properly designated Custodial Officers, all these activities were
not carried out for all Custodial Areas at AED."

18. On pages 39-40, the draft report states that in 1997 the Property Officer sent a memo to the Acting
ADPO, requesting training for custodial officers.


RESPONSE: We request the following sentence be added to the text:


                                                     86                              Report No. 2000-P-00015
                                                                                     Audit of Extramural and
                                                                                 Property Management at the
                                                                                    Atlantic Ecology Division

"There was no further evidence that the Property Officer raised this concern again with either the Acting
AED Director or the permanent ADPO until the time of the OIG's visit."

Comment: We would like the report to reflect that Property Officer did not bring this issue to the attention
to anyone else again, including the AED Acting Director or the permanent ADPO, who was appointed in
April 1998.

19. On page 54, and throughout this chapter, as noted in our cover memo, we do not believe the general
conclusion that there had been no improvement in the management of IAGs is a fair statement, based on a
sample of one IAG.




                                                     87                              Report No. 2000-P-00015
         Audit of Extramural and
     Property Management at the
        Atlantic Ecology Division




88      Report No. 2000-P-00015
         Audit of Extramural and
     Property Management at the
        Atlantic Ecology Division




89      Report No. 2000-P-00015
         Audit of Extramural and
     Property Management at the
        Atlantic Ecology Division




90      Report No. 2000-P-00015
         Audit of Extramural and
     Property Management at the
        Atlantic Ecology Division




91      Report No. 2000-P-00015
         Audit of Extramural and
     Property Management at the
        Atlantic Ecology Division




92      Report No. 2000-P-00015
         Audit of Extramural and
     Property Management at the
        Atlantic Ecology Division




93      Report No. 2000-P-00015
         Audit of Extramural and
     Property Management at the
        Atlantic Ecology Division




94      Report No. 2000-P-00015
         Audit of Extramural and
     Property Management at the
        Atlantic Ecology Division




95      Report No. 2000-P-00015
                                                                    Audit of Extramural and
                                                                Property Management at the
                                                                   Atlantic Ecology Division




                              APPENDIX 5
                                 DISTRIBUTION


Office of Inspector General

Inspector General (2410)
Office of Inspector General - Headquarters (2421)
Executive Assistant to Inspector General (2410)
Assistant Inspector General for Audit (2421)
Deputy Assistant Inspector General for External Audits (2421)
Deputy Assistant Inspector General for Internal Audits (2421)
Assistant Inspector General for Planning, Analysis, and Results (2421)
Divisional Inspectors General for Audit

Headquarters

Assistant Administrator for Research and Development (8101R)
Associate Director Office of Resource Management and Administration (8102R)
Audit Liaison (8102R)
Agency Audit Follow-up Coordinator (2724)
Agency Audit Follow-up Official (2710)
Associate Administrator for Congressional and Legislative Affairs (1301)
Associate Administrator for Communications, Education, and Public Affairs (1701)
EPA Library (3403)

Research Triangle Park, North Carolina

Director National Health and Environmental Effects Research Laboratory (MD-51)
Management Deputy Director National Health and Environmental Effects Research
       Laboratory (MD-51)
Director National Accountability and Resources Management Staff (MD-85)
Audit Follow-up Coordinator (MD-85)
Associate Director for Ecology (MD-87)
Director Contracts Management Division (MD-33)



                                          96                       Report No. 2000-P-00015
                                                 Audit of Extramural and
                                             Property Management at the
                                                Atlantic Ecology Division



Atlantic Ecology Division

Acting Director
Associate Director Program Operations
Extramural Management Specialist

Other

General Accounting Office




                                        97      Report No. 2000-P-00015
